<html>
<title> - AMERICAN HERITAGE RIVERS INITIATIVE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  AMERICAN HERITAGE RIVERS INITIATIVE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

  OVERSIGHT HEARING ON THE CLINTON ADMINISTRATION'S AMERICAN HERITAGE 
                           RIVERS INITIATIVE

                               __________

                     JULY 15, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-36

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 42-836 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 15, 1997.......................................     1

Statement of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement.........................    10
    Hansen, Hon. James, a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement.......................................     3
    McHale, Hon. Paul, a Representative in Congress from the 
      State of Pennsylvania......................................    14
    Miller, Hon. George, a Representative in Congress from the 
      State of California, prepared statement of.................     5
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement................     6
    Pickett, Hon. Owen B., a Representative in Congress from the 
      State of Virginia, prepared statement......................    64

Statement of Witnesses:
    Babbitt, Hon. Bruce, Secretary, U.S. Department of the 
      Interior, Washington, DC...................................    26
    Glickman, Hon. Dan, Secretary, U.S. Department of 
      Agriculture, Washington, DC................................    28
    McGinty, Kathleen A., Chair, Council on Environmental 
      Quality, Executive Office of the President, Washington, DC.    24
        Prepared statement.......................................    69

Additional material supplied:
    American Heritage Rivers Initiative, frequently asked 
      questions and answers......................................    94
    Council on Environmental Quality, Briefing Paper, American 
      Heritage Rivers Initiative.................................    65
        Proposal with Request for Comment........................    84
    Letter to Hon. Don Young from Ms. McGinty....................    83
    Letter to Kathleen McGinty from various Members..............    67
    Webb, Hon. Wellington E., Mayor of Denver, Resolution No. 51, 
      submitted by...............................................    81



  OVERSIGHT HEARING ON THE CLINTON ADMINISTRATION'S AMERICAN HERITAGE 
                           RIVERS INITIATIVE

                              ----------                              


                        TUESDAY, JULY 15, 1997,

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 1324, Longworth House Office Building, Washington, DC, 
Hon. James Hansen, [member of the Committee] presiding.

 STATEMENT OF HON. JAMES HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Committee will come to order. Chairman Don 
Young has asked me to chair this hearing at this time. I am Jim 
Hansen. I represent the first district in Utah.
    This morning, the Committee will hear Administration 
testimony on the controversial American Heritage Rivers 
Initiative. This oversight hearing is the result of tremendous 
public outrage and concern expressed to the Congress during the 
past several months and the need to have accountability for the 
Federal agencies undertaking this activity.
    This Committee has jurisdiction over the Council on 
Environmental Quality, the Department of the Interior, and the 
Forest Service under the direction of the Department of 
Agriculture. This hearing will raise serious questions about 
Federal agency participation in and the coordination of this 
initiative throughout the United States and may very likely 
lead to further Congressional oversight hearings in order to 
provide the American public an opportunity to express their 
concerns on this issue.
    This hearing this morning was postponed from the original 
date of June 26, 1997, at the request of the Council on 
Environmental Quality. Furthermore, through negotiation between 
this Committee and the Council on Environmental Quality, the 
testimony of these five Administration witnesses was agreed to, 
although this Committee originally requested that all 12 
Federal agencies involved in the implementation of this 
initiative provide testimony.
    We appreciate the attendance of Kathleen McGinty, Secretary 
Bruce Babbitt, Secretary Glickman, and we haven't had the 
opportunity to have our former colleague, Mr. Goodman, before 
us before. It is a pleasure to have him here. Dan was a joy to 
work with on legislation, and I think we accomplished some good 
things, and the Administration appointees before the Committee 
this morning and look forward to their testimony.
    The President first mentioned the American Heritage Rivers 
Initiative during the State of the Union Address on January 4, 
1997. The basic thrust of the American Heritage Rivers 
Initiative is that the President will designate by proclamation 
ten rivers during the calendar year with the potential for an 
unlimited number to follow at a later date. Rivers will be 
nominated by communities submitting plans to a Federal 
interagency task force that will make recommendations to the 
President.
    This vague and broad statement which has no prior 
coordination within the executive branch has resulted in the 
Council on Environmental Quality coordinating this initiative 
within the Cabinet and involving at least 12 Federal agencies. 
This far-reaching initiative involves designation of Federal, 
State, and private lands in ten so-called American Heritage 
Rivers that will encompass hundreds of miles of shoreline 
involving multiple overlapping city, county, and State 
jurisdictions, and in fact, international boundaries.
    For example, the Council on Environmental Quality documents 
specifically refer to the potential of designating the entire 
length of the Mississippi River under one U.S. Army Corps of 
Engineers district, and hundreds of miles of the Rio Grande 
River forming the boundary between Texas and Mexico.
    The Committee on Resources has the Congressional 
jurisdiction over designation of Federal lands, wild and scenic 
rivers, trails, wilderness, recreation areas, and heritage 
areas, among other considerations.
    The Committee and the Congress sometimes take decades to 
reach consensus on these designations and eventually pass laws 
authorizing the establishment. The unauthorized proclamation of 
such areas by the President will at a minimum create confusion 
with the American public, and at worst, is a direct challenge 
to Congressional jurisdiction and authority.
    Following the May, 1997, publication of notice on the 
American Heritage Rivers Initiative in the Federal Register, 
this Committee requested an extension of the public comment 
period for 90 days until September 9, 1997. On June 20, 1997, 
the Administration provided for only 60 more days of public 
comment until August 20, 1997. Today, this Committee formally 
requests an additional 60 days of public comment until October 
20, 1997. This time will allow the American Public and local 
and State elected officials to have an adequate opportunity to 
address this issue.
    Media and press reports, private citizens and organization 
accounts, Council on Environmental Quality documents requested 
by this Committee all reveal that a disturbing case for Federal 
agency misconduct seems to be developing. Meetings were held 
with limited public notification and involvement. Special 
invitation only meetings were held and State governmental 
agencies have not been involved. Furthermore, there are 
reported instances of Federal employees promising enhanced or 
priority funding for rivers designated under this initiative.
    The Administration has informed this Committee that there 
are no fiscal year 1997 or fiscal year 1998 funds specifically 
authorized or appropriated for this American Heritage Rivers 
Initiative. How-

ever, documents provided by the Council on Environmental 
Quality describe a Federal program that will be created by 
executive order issued later this summer that will require 
reprogramming of over $2,000,000 of agency funds for this 
initiative.
    For instance, the so-called river navigator position will 
cost over $100,000 per designated river and will be utilizing 
Federal employees. Staffing and meetings for a so-called blue 
ribbon panel will cost over $300,000. In addition, the long 
awaited tool box of agency information on resources available 
to designated rivers will cost over $300,000 in staff and 
production costs.
    The staffing estimates do not account for the Federal 
employees currently involved in the Federal interagency task 
force but does reflect that these Federal employees are 
involved full-time on this project.
    I am increasingly concerned with the Administration's 
arrogance and abuse of unilateral Presidential actions. The 
creating of the ill-conceived Grand Staircase-Escalante 
National Monument, cutting huge land deals on the Headwaters 
Forest and the Crown Butte Mine were all examples of executive 
actions taken without Congressional approval.
    This Committee has already demonstrated that the monument 
was purely politically driven, and all you have to do is go 
down and spend months on it as I have, and you will see that.
    Moreover, now the Administration wants Congress to bail 
them out of the Headwaters and Crown Butte land deals because 
once the political advantage of this announcement wears off, 
there is no substance to these actions, and now, this new river 
initiative that again appears to be politically motivated.
    Yes, once again, documents provided by the Administration 
reveal that politics is a major consideration in the 
designation of these rivers.
    I don't believe there is a Member of Congress who does not 
believe in conservation; however, this Nation believes in the 
democratic process that provides for debate and refining of 
ideas.
    This Committee looks forward to the testimony we will 
receive from the distinguished panel this morning. The 
Committee members have many questions to ask following your 
prepared remarks, so I hope that your schedules have been 
arranged to remain until we have completed all questions from 
members of the Committee for the record.
    [Briefing Paper on Council on Environmental Quality's 
American Heritage Rivers Initiative may be found at end of 
hearing.]
    [Statement of Hon. James Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good morning. The Committee on Resources will come to 
order.
    This morning this Committee will hear Administration 
testimony on the controversial American Heritage Rivers 
Initiative. This oversight hearing is the result of tremendous 
public outrage and concern expressed to the Congress during the 
past several months and the need to have accountability for the 
Federal agencies undertaking this activity.
    This Committee has jurisdiction over the Council on 
Environmental Quality, the Department of the Interior, and the 
Forest Service under the Department of Agriculture. This 
hearing will raise serious questions about Federal agency 
participation in, and coordination of this initiative 
throughout the United States, and may very likely lead to 
further Congressional oversight hearings in order to provide 
the American public an opportunity to express their concerns on 
this issue.
    The hearing this morning was postponed from the original 
date of June 26, 1997, at the request of the Council on 
Environmental Quality. Furthermore, through negotiation between 
this Committee and the Council on Environmental Quality, the 
testimony of these five Administration witnesses was agreed to, 
although this Committee originally requested that all 12 
Federal agencies involved in the implementation of this 
initiative provide testimony. We appreciate the attendance of 
Katie McGinty, Secretary Babbitt, Secretary Glickman and the 
Administration's appointees before the Committee this morning, 
and look forward to their testimony.
    The President first mentioned the American Heritage Rivers 
Initiative during his State of the Union Address on February 4, 
1997. The basic thrust of the American Heritage Rivers 
Initiative is that the President will designate, by 
proclamation, 10 rivers during this calendar year, with the 
potential for an unlimited number to follow at a later date. 
Rivers will be nominated by ``communities'' submitting plans to 
a ``Federal interagency task force'' that will make 
recommendations to the President.
    This vague and broad statement, which had no prior 
coordination within the executive branch, has resulted in the 
Council on Environmental Quality coordinating this initiative 
within the Cabinet, and involving at least 12 Federal agencies. 
This far-reaching initiative involves designation of Federal, 
State and private lands into 10 ``so called'' American Heritage 
Rivers that will encompass hundreds of miles of shoreline 
involving multiple overlapping city, county, and State 
jurisdictions, and in fact, international boundaries. For 
example, Council on Environmental Quality documents 
specifically refer to the potential of designating the entire 
length of the Mississippi River under one U.S. Army, Corps of 
Engineer District, and hundreds of miles of the Rio Grande 
River forming the boundary between Texas and Mexico.
    This Committee on Resources has the Congressional 
jurisdiction over designation of Federal lands, wild and scenic 
rivers, trails, wilderness, recreation areas, and heritage 
areas, among other considerations. This Committee, and the 
Congress, sometimes take decades to reach consensus on these 
designations, and eventually pass laws authorizing their 
establishment. The unauthorized ``proclamation'' of such areas 
by the President will, at a minimum, create confusion with the 
American public, and at worst, is a direct challenge to 
Congressional jurisdiction and authority.
    Following the May 19, 1997 publication of notice on the 
American Heritage Rivers Initiative in the Federal Register, 
this Committee requested an extension of the public comment 
period for 90 days, until September 9, 1997. On June 20, 1997, 
the Administration provided for only 60 more days of public 
comment, until August 20, 1997. Today, this Committee formally 
requests an additional 60 days of public comment, until October 
20, 1997. This time will allow the American public and local 
and State elected officials, to have an adequate opportunity to 
address this issue.
    Media and press reports, private citizen and organization 
accounts, Council on Environmental Quality documents, requested 
by this Committee, all reveal that a disturbing case of Federal 
agency misconduct seems to be developing. Meetings were held 
with limited public notification and involvement. Special 
invitation only meetings were held and county and State 
governmental agencies have not been involved. Furthermore, 
there are reported instances of Federal employees promising 
enhanced or priority funding for rivers designated under this 
initiative.
    The Administration has informed this Committee that there 
are no fiscal year 1997 or fiscal year 1998 funds specifically 
authorized or appropriated for this American Heritage Rivers 
Initiative. However, documents provided by the Council on 
Environmental Quality, describe a Federal program that will be 
created by Executive Order, issued later this summer, that will 
require reprogramming over $2 million of agency funds for this 
initiative. For instance, the ``so called'' river navigator 
position will cost over $100,000 per designated river, and will 
be utilizing Federal employees. Staffing and meetings for a 
``so called'' blue ribbon panel will cost over $300,000. In 
addition, the long awaited ``tool box'' of agency information 
on resources available to designated rivers will cost over 
$300,000 in staff and production costs. The staffing estimates 
do not account for the Federal employees currently involved in 
the Federal interagency task force, but does reflect that these 
Federal employees are involved full time on this project.
    I am increasingly concerned with this Administration's 
arrogance and abuse of unilateral Presidential actions. 
Creation of the ill-conceived Grand Staircase-Escalante 
National Monument, cutting huge land deals on the Headwaters 
Forest and the Grand Butte mine, are all examples of Executive 
actions taken without Congressional approval. This Committee 
has already demonstrated that the monument was purely 
politically driven. Moreover, now the Administration wants 
Congress to bail them out on the Headwaters and Crown Butte 
land deals because once the political advantages of the 
announcement wear off, there is no substance to these actions. 
And now, this new Rivers Initiative that again appears to be 
politically motivated. Yes, once again, documents provided by 
the Administration reveal that politics is a major 
consideration in the designation of these rivers. I don't 
believe there is a Member in Congress who does not believe in 
conservation; however, this Nation believes in a democratic 
process that provides for debate and refining of ideas.
    This Committee looks forward to the testimony we will 
receive from this distinguished panel this morning. The 
Committee members have many questions to ask following your 
prepared remarks, so I hope that your schedules have been 
arranged to remain until we have completed all questions from 
Members of the Committee for the record.
    Mr. Hansen. I ask unanimous consent that the former member 
of this Committee, Doc Hastings, be allowed to sit on the dais. 
Is there objection?
    Hearing none, so ordered.
    The gentleman from California, Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman, and I would ask 
unanimous consent that the statement by Mr. Pallone of the 
Committee be inserted in the record.
    Mr. Hansen. Without objection.
    Mr. Miller. And that my statement be inserted in the record 
in its entirety.
    I just wanted to say that I welcome our distinguished panel 
of witnesses here today, and I strongly support the American 
Heritage Rivers Initiative. I believe that this is an important 
initiate to try to coordinate State, local, and Federal efforts 
at watershed management and helping local communities to reach 
a consensus on how we manage the rivers.
    This theme of management of these water resources has been 
explored in the Water Policy Review Commission on which I sit 
as a member, and we have been taking testimony from local 
communities about the management of these rivers.
    Obviously, there can be no discussion of American history, 
American culture, or American heritage without the discussion 
of America's rivers, and unfortunately, too often, we find too 
many of our rivers in serous trouble because of a lack of 
coordination, the lack of local input, and the lack of good 
decisionmaking processes. Hopefully, this initiative will bring 
to these watersheds and to these communities the help that is 
necessary so that we might engage in better decisionmaking 
about our rivers.
    I look forward to the testimony of the witnesses.
    [Statements of Hon. George Miller and Hon. Frank Pallone 
follows:]

Statement of Hon. George Miller, a Representative in Congress from the 
                          State of California

    Good morning. I want to welcome our distinguished panel of 
witnesses here today. I hope they will be able to dispel some 
of the rumors that have been circulating regarding the American 
Heritage Rivers Initiative.
    The American Heritage Rivers Initiative has grown into a 
government-wide effort to improve communication about Federal 
rivers programs, and to coordinate Federal agency activities 
affecting rivers. I don't think anyone could fail to support 
the goals of improved communication and agency coordination. I 
hope that this Initiative achieves these goals and increases 
public awareness of Federal resources for river conservation.
    In addition, I applaud the effort to work with local 
communities to determine local needs for river conservation. In 
several places in the West, local watershed councils have 
proven that citizens working together can be effective in 
reaching consensus on managing rivers. Many of the best 
decisions about river management come from local watershed 
groups working together with State and Federal agencies. This 
theme is being explored in some detail by the Western Water 
Policy Review Commission, on which I sit. I expect that the 
Commission will strongly recommend expansion of these efforts.
    I am pleased to see that the Administration has chosen to 
extend the comment period on the American Heritage Rivers 
Initiative. The public has expressed considerable interest in 
this program, and further public comment is warranted. However, 
I hope that the extended comment period will not lead to 
indefinite delays in coordinating agency efforts on rivers. 
Making Federal programs work together is an objective that the 
Administration should pursue regardless of other factors 
affecting this Initiative.
    I look forward to the witnesses' testimony. Thank you.
                                ------                                


Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Thank you, Mr. Chairman. I would like to welcome Ms. 
McGinty, Secretary Babbitt, and Secretary Glickman and thank 
them for coming today to provide us with information on the 
American Heritage Rivers Initiative currently being developed 
by the Clinton Administration. This promises to be an important 
and useful initiative for river communities around the country 
and I look forward to hearing their testimony.
    I would like to take this opportunity to say a few words of 
support for the American Heritage Rivers Initiative.
    Our country has been built around our Nation's rivers. From 
the very beginning, rivers served as an essential means of 
transportation, and therefore as a conduit for trade and 
commerce. Rivers have provided endless recreational 
opportunities. They have also provided an important national 
aesthetic.
    The goal of the American Heritage River initiative is to 
support communities in their efforts to restore and revitalize 
the economic, historic, cultural, recreational, and 
environmental values of their rivers. Under this new 
initiative, communities will nominate themselves to be selected 
as American Heritage Rivers, and the President will designate 
10 such rivers in his next State of the Union Address.
    The American Heritage Rivers Initiative acknowledges the 
critical role that rivers have played in America's development. 
Perhaps more importantly, however, the American Heritage Rivers 
Initiative also acknowledges the role that these rivers can 
still play in the continued growth and enhancement of river-
front communities nationwide. And for that reason, I am very 
excited about the prospects of this initiative and its 
potential for improving the quality of life of a lot of people 
in this country.
    While this is an initiative based on rivers and the 
restoration and revitalization of river related resources, it 
is really about people and communities. It is the local 
communities that must voluntarily nominate their river, create 
partnerships among affected groups to ensure broad based 
support for the nomination, identify common goals, and develop 
a plan to achieve those goals. In this way, the American 
Heritage Rivers Initiative helps communities at the local level 
to work together to realize their own goals and improve their 
communities in ways that they themselves have chosen.
    And that is why there is a lot of support for this 
initiative at the local level. The U.S. Conference of Mayors 
has already endorsed the Initiative. And I know that my office 
has been contacted by local officials from the district that I 
represent who are very interested in the initiative and who 
plan to nominate the Raritan River to be an American Heritage 
River, a nomination that I would welcome and whole-heartedly 
support and one that I think would be well deserving of the 
honor.
    I think the bottom line here is that the American Heritage 
Rivers Initiative is going to help communities to focus their 
own resources, better coordinate Federal assistance, as well as 
to leverage sources of non-government assistance in order to 
conduct economic development, historic preservation, 
environmental restoration, and educational and recreational 
activities along our Nation's rivers. And that is something 
that I think deserves widespread, bipartisan support.
    Again, I would like to thank Ms. McGinty, Mr. Babbitt, and 
Mr. Glickman, as well as the Environmental Protection Agency 
and the Army Corps of Engineers for coming here today and I 
look forward to hearing their testimony.
    Thank you.

    Mr. Hansen. I thank the gentleman from California. I can 
see that we have quite a few members here, and I am sure more 
will be coming.
    I am sure most of you have opening statements. We have a 
lot of ground to cover and a lot of witnesses, and we have our 
two secretaries and the chairman of the counsel. I would 
appreciate it if we could be brief in our opening statements.
    I will start in the order they arrived. Mr. Hill.
    Mr. Hill. Thank you, Mr. Chairman, and thank you for 
holding this important oversight hearing.
    As with most Federal programs, this initiative seems well 
intended, particularly for those communities that are 
interested in finding new tourism opportunities. However, as 
with all proposals, the devil is in the details.
    A lot of questions need to be asked today. For example, 
will the American Heritage Rivers Initiative serve as a simple 
nonregulatory purpose or is it an incremental approach that 
will lead to more infringements on local sovereignty and 
individual property rights? Moreover, what effect will this 
have on the American taxpayer, particularly when Congress has 
not authorized the initiative?
    Mr. Chairman, I strongly believe we need to find answers to 
these questions on behalf of the American people and the people 
of Montana. They deserve nothing less than accountability from 
the Congress and from the White House.
    I look forward to closely examining the proposal and 
hearing from our distinguished witnesses.
    Again, Mr. Chairman, thank you.
    Mr. Hansen. The gentlelady from the Virgin Islands.
    Ms. Green. Thank you, Mr. Chairman. Just briefly, I think 
it is a great initiative which the President announced during 
his State of the Union Address. It is community-based, 
denominated, and still coordinates the efforts of many Federal 
agencies, and it is yet another program to help rebuild 
America's towns and cities as well as restore some of our 
important natural resources.
    As I welcome the panelists and look forward to their 
testimony, I think about a river out of our Virgin Islands, the 
Salt River, the only point within the United States where 
Columbus actually was known to have landed. It is a great 
historical area and a valued natural habitat.
    While we had not planned to restore the entire river, the 
estuary is in need of restoration and protection, and it has 
the potential for wonderful recreational tourism and 
educational development. I wonder if it would qualify for this 
program, and I hope that during the course of this morning, 
that could be answered for me.
    I am pleased to join you, Mr. Chairman, and the rest of my 
colleagues and welcome our panelists this morning.
    Mr. Hansen. Thank you. The gentleman from Nevada, Mr. 
Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman. Very briefly, I want 
to thank you and the leadership of this Committee for having 
this hearing here today.
    I welcome the guests who are going to be testifying as 
well. I think that the purpose of this hearing, of course, 
should be to answer some of the questions that we have as 
Members of Congress as to whether or not such a designation as 
this should be actually authorized by Congress, should it be an 
administrative procedure, whether or not there was sufficient 
time given to the public of this country to have sufficient 
input into the process.
    As a result, I will be very interested to hear some of the 
answers that are going to be proposed here today in 
relationship to those, and I welcome the opportunity to 
participate in this hearing. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Virginia, Mr. 
Pickett.
    Mr. Pickett. Thank you, Mr. Chairman. In the interests of 
time and hearing what our witnesses have to say today, I will 
submit my statement for the record.
    Mr. Hansen. Thank you. The gentleman from Idaho, Mr. Crapo.
    Mr. Crapo. Thank you, Mr. Chairman. I will be brief also, 
but I do want to associate myself with the chairman's remarks 
and to also indicate that it is of great concern to me and my 
constituents that we now face yet once again in this arena the 
same battle which we seem to fight constantly these days, and 
that is whether all wisdom does flow from Washington.
    I can tell you that I have just come from a meeting where 
we have been discussing some of the water and river issues in 
my community, and if you want to see how another Federal task 
force or a federally managed program can foul up a river 
system, just take a look at the Columbia River system in the 
Pacific Northwest.
    The last thing we need is another Federal initiative to 
move Federal management into decisions of this type.
    I have introduced legislation that would require the 
Federal Government to comply with State substantive and 
procedural water law with regard to the allocation, management, 
and use of water, and it is of concern to me that this 
initiative not only seems to move back toward the approach of 
saying that all wisdom comes from a federally managed task 
force, but it seems to say that that wisdom which some seem to 
think flows only from Washington now flows only from the 
executive branch in Washington.
    It appears to me that we have a lot of important questions 
to answer today about not only the wisdom of this initiative at 
all, but how it has been proposed in a manner which excludes 
Congress from any effective involvement in development of 
policy regarding the management of the Nation's rivers.
    Mr. Hansen. Thank you. The gentleman from Colorado, Mr. 
Schaffer.
    Mr. Schaffer. Thank you, Mr. Chairman. The people in my 
State are quite concerned over the initiative, but I think not 
so much because they know of many details. There were not that 
many disclosed, quite frankly, but because of the manner in 
which it was introduced and suggested in the Congressional 
Record, given a very short period of time for public comment, 
and that it has really caused a number of folks that I 
represent to view this whole initiative with some degree of 
skepticism, that also taken in light of what has happened in 
our neighboring State with the Grand Staircase-Escalante 
heritage program there done in large part without the knowledge 
of the Congressional delegation, the Governor, the members of 
the legislature and their home State, and in fact, announced 
from a neighboring State, not even from the State that was 
affected.
    There are several examples like this that we have heard, 
the discussions about reintroduction of grizzly bears in Idaho 
to the objection of members of that State's entire delegation 
in that case, almost, as I recall, unanimous opposition in the 
State legislature.
    In Kentucky as well, this biosphere initiative has in the 
same way encouraged the opposition of the Kentucky State 
legislature, yet these initiatives continue to move forward and 
be presented by the Administration as represented here today, 
portions of the Administration represented here today, and it 
is for those reasons that I think that the citizens and 
taxpayers throughout the country, rightly so, view these 
programs and this initiative with great skepticism and 
hopefully, as a result of this hearing here today, we will be a 
little bit more knowledgeable about the intent and the 
objectives of the Clinton Administration.
    Mr. Hansen. The gentlelady from Idaho, Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I have been 
outspoken on this issue, this initiative since I first read 
about it in the Federal Register, and it is no secret that I am 
adamantly opposed to it.
    I think my colleague from Idaho very clearly stated what 
our western perspective is. It seems like every time I open the 
Federal Register, there is a new effort by the Federal 
Government to become the nanny of the western resources. From 
the Forest Service and the Bureau of Land Management's proposed 
law enforcement regulations which is a direct assault on the 
Constitution in many ways to the lock-up of billions of dollars 
in resources over the Escalante National Monument set-aside 
which took private rights and State property, I am very 
disturbed and very suspicious, and we have a right to be.
    Today, we examine the American Heritage Rivers Initiative 
initially proposed May 19, 1997, with only a 3-week comment 
period which was thankfully extended. The American Heritage 
Rivers Initiative creates a new entity called the river 
community which is not defined to propose a new designation.
    It establishes a river navigator, a Federal official, to 
help guide the river communities through the designation 
process. Interestingly, this river navigator is tabbed to be a 
GS-13 to a GS-15 to the tune of a salary of up to $100,000 a 
year--all, Mr. Chairman, without Congressional authorization.
    Ten rivers per year, the possibility of ten rivers per 
year, ten times river navigators, at $100,000 salary per year 
is $1,000,000 just in salary--per year. The river navigator's 
tenure is 5 years. That is $5,000,000 plus ten additional 
rivers per year. The numbers start adding up pretty fast into 
the millions.
    The last time I checked, the Constitutional role of 
Congress is to authorize the funds, and I don't remember 
authorizing $5,000,000 per year for river navigators. Do you, 
Mr. Chairman?
    Probably the most offensive and alarming issue here is the 
scope of area covered by these nominations. A designation may 
include the length of the area whether it be an entire 
watershed, the length of the entire river, and may cross 
jurisdictional boundaries, as you stated.
    This can literally mean by definition from mountaintop to 
mountaintop, and given that the Mississippi River drains 
approximately 40 percent of the U.S. mainland, 40 percent of 
the U.S. could conceivably be an American Heritage River.
    Mr. Chairman, whether this designation has legal teeth or 
not is not the issue. The issue is private and State property 
rights and self determination and State determination. The 
Idaho Constitution and Code, like many western States, 
expressly claims all waters within its boundaries as State's 
waters. How can we allow the Federal Government to designate 
something it doesn't own?
    If the Clinton Administration is truly serious about 
American Heritage Rivers, let us take the $5,000,000 they are 
taking from other on-the-ground programs and clean up our 
historical surroundings. It is an embarrassment to this Nation 
when people from around the Nation and around the world come to 
the capital of the United States to watch people pull fish from 
the tidal basin with blisters on them and open sores and to 
watch garbage and tires floating around as one gazes out from 
the historic Thomas Jefferson Memorial.
    The Anacostia and the Potomac Rivers are historic and 
certainly part of our heritage. The rivers were used by 
explorers and settlers to trade with Native Americans, by the 
British in an effort to hold on to the colonies, and by the 
architects of our capital city to bring marble and granite into 
Washington to build the Federal city, and the Hudson Bay and 
other places full of history need our attention.
    I would suggest to the Clinton Administration that they 
take on these projects first, and when they have brought these 
projects up to a standard that they are satisfied with, that 
can then be the measuring standard by which they measure all 
other rivers that they wish to take into this particular 
program.
    Thank you, Mr. Chairman. I have a full statement that I 
would like to enter into the record with your permission.
    Mr. Hansen. Without objection.
    Mrs. Chenoweth. Thank you.
    [Statement of Hon. Helen Chenoweth follows:]

 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho

    Mr. Chairman, thank you for holding this hearing on this 
very important issue.
    From the perspective of the western States, I have to ask 
the question: When is enough, enough? It seems every time I 
open the Federal Register, there is a new effort by the Federal 
Government to become the nanny of western resources. From 
Forest Service and Bureau of Land Management proposed law 
enforcement regulations--which would have thrown out the 
Fourth, Fifth and Sixth Amendments--to the Utah Monument--which 
locked up billions of dollars in resources including over of 
billion dollars of Utah's school children--the Clinton 
Administration's appetite to control western resources appears 
insatiable.
    (And certainly there have been many programs in between: 
the Interior Columbia Basin Ecosystem Management Program; the 
introduction of grizzly bears into Idaho over the strenuous 
objections of the Governor, the legislature and Idaho's 
congressional delegation; the Uniform Action Guidelines for the 
Sawtooth National Forest designed to end grazing; the Owyhee 
Resource Management Plan, again, to end grazing; the illegal 
July 2, 1996 USDA memo to illegally end salvage timber 
operations in violation of congressional intent; Forest Service 
efforts to end historical jet boating in Hells Canyon; EPA's 
Idaho water quality standards; takings of water for bull trout 
and salmon--the list literally goes on and on. When is enough, 
enough?)
    Today, we examine the American Heritage Rivers initiative. 
Proposed on May 19, 1997 with only a 3-week comment period 
initially, the initiative proposes to des-

ignate ten rivers per year as American Heritage Rivers. It 
creates the fictional entity ``river community'' which is not 
defined--to propose a designation. It establishes a ``river 
navigator,'' a Federal official to help guide the river 
community through the designation process. Interestingly this 
``river navigator'' is tapped to be a GS-13 to GS-15 to the 
tune of up to one hundred thousand dollar salary--all without 
congressional authorization.
    Mr. Chairman, 10 rivers per year, times 10 river navigators 
at a hundred thousand dollar salary per year is one million 
dollars--just in salary. The river navigator's tenure is 5 
years, that's five million dollars, plus 10 additional rivers 
per year. The numbers start adding up pretty fast. Millions 
upon millions of dollars, just in river navigator salaries. 
Last I checked, the Constitutional role of Congress is to 
authorize the funds. I don't remember authorizing five million 
dollars per year for river navigators. Do you, Mr. Chairman?
    Additionally, the ``river community'' is only vaguely 
defined. Who is a member? In today's environment, when an 
individual in Maine can protest each and every timber sale in 
Idaho with a mere postcard, I am left with little comfort as to 
who is a member of the river community! Additionally, the 
ambiguous definition includes ``. . . parties . . . that 
support the designation and the goals of American Heritage 
Rivers.'' This is truly amazing to me. This definition leaves 
absolutely zero room for detractors--the private land owner who 
objects to his land being included in the designation has no 
voice in the so-called ``river community.'' Private property 
rights are again under attack by the Clinton Administration.
    But probably the most offensive issue here is the ``Scope 
or Area Covered by Nomination.'' A designation may include 
``the length of the area, whether it be an entire watershed, 
the length of the entire river, [and] may cross jurisdictional 
boundaries . . .'' Mr. Chairman, this can literally be mountain 
top to mountain top. And given that the Mississippi River 
drains approximately 40 percent of the U.S. mainland, 40 
percent of the U.S. could conceivably be an American Heritage 
River.
    Mr. Chairman, whether this designation has legal teeth is 
not the issue. The issue is private property rights and self-
determination. The Idaho Constitution and code, like many 
western States, expressly claims all water within its borders 
as Idaho's water. How can we allow the Federal Government to 
designate something it doesn't own? It is the height of 
arrogance! Additionally, the designation will become nothing 
more than a tool by environmental extremists to further lock-up 
resources and control or take private and State property.
    The proposal purports to utilize a Federal ``Good 
Neighbor'' policy and to more effectively and efficiently 
coordinate and deliver Federal support to the community. These 
are laudable goals and I am pleased to know the Clinton 
Administration is trying to be a ``Good Neighbor.'' But why 
does it take this proposal? Shouldn't the Federal Government 
already be a ``Good Neighbor?'' Shouldn't the Administration 
already be striving for efficiency? Is this proposal a tacit 
admission that the Clinton Administration is not striving for 
these goals?
    If the Clinton Administration is truly serious about 
American Heritage, let's take the five million dollars they are 
robbing from other on the ground programs and clean-up our 
historical surroundings. It is an embarrassment to this Nation 
when people from around the Nation and world come to the 
Capital of the United States to watch people pull fish from the 
tidal basin with blisters and open sores, and to watch garbage, 
tires and debris float around as one gazes out from the 
historic Jefferson Memorial. The Anacostia and Potomac rivers 
are historical, and certainly part of our ``heritage.'' The 
rivers were used by explorers and settlers to trade with the 
Native Americans, by the British in an effort to hold-on to the 
colonies, and by the architects of our capital city to bring 
marble and granite into Washington to build the Federal city. 
And the Hudson Bay and other places full of history need our 
attention. We've got a ``good neighbor'' trying to tell the 
west how to live its life, when it can't even take care of its 
own backyard.
    Mr. Chairman, I introduced H.R. 1842 to stop this ill-
conceived program, and I urge my colleagues to join me.
    Lastly, Mr. Chairman, in closing I'd like to quote the 
seminal U.S. Supreme Court case on western water law, the 1978 
California v. U.S.: ``The history of the relationship between 
the Federal Government and the States in the reclamation of the 
arid lands of the Western States is both long and involved, but 
through it runs the consistent thread of purposeful and 
continued deference to State water law by Congress. [Indeed], 
to take from the legislatures of the various States and 
territories the control of water at the present time would be 
something less than suicidal. If the appropriation and use were 
not under the provisions of State law, the utmost confusion 
would prevail.'' Mr. Chairman, I couldn't agree more. When is 
enough, enough?
    Thank you Mr. Chairman.

    Mr. Hansen. The gentleman from New York, Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. First of 
all, I want to express my appreciation to you for holding these 
hearings and thereby giving us an opportunity to look into this 
very important subject of American rivers.
    I want to say that I have been excited about this program 
ever since the President announced it in the State of the Union 
Address earlier this year. I think it is a terrific idea and 
one that ought to be supported by all of the American people.
    I can tell you that the people in my district do support 
it. In the intervening period between his announcement of the 
program and today, my district office has had numerous calls 
from people on a bipartisan basis, Republicans and Democrats, 
even the State government in New York, which of course is 
currently a Republican State government with Republican 
Governor, strongly supports the program and has spoken out in 
favor of it much to their credit.
    Most of the support that we have seen has come from 
nonpartisan organizations, environmental, civic, other 
organizations stretching all along the Hudson River, excited 
about the prospects of this program, looking forward to it, and 
hoping that the Hudson River will in fact merit the designation 
of one of America's National Heritage Rivers. It is a very, 
very exciting program.
    Of course, there have been those who have raised the 
specter of government control which of course in the context of 
this particular program is nonsense, but it is not the first 
time that we have heard that.
    When I was a member of the State legislature, I initiated a 
program creating the Hudson River Valley Greenway which is a 
multi-county project that stretches all along the Hudson River, 
all along its tidal length at least as far north as the Federal 
dam at Troy, about 150 miles. In that particular context, 
people raised the specter of government control. Of course, it 
wasn't true, and that program has survived, and people 
understand that.
    Even in the context of the designation of the Hudson River 
as an American Heritage area last year, which came through this 
Committee, Mr. Chairman, for which I and the people that I 
represent are very grateful for the fact that the Hudson River 
was designated an American Heritage area along with a number of 
other areas around the country. I think that that was a 
marvelous, very strong step forward in celebration of the great 
heritage of this country in providing an opportunity for people 
to become better acquainted with the American Heritage.
    This program, I think, is a great one. I have seen in the 
course of my tenure in public service an enormous improvement 
in America's rivers as a result of the clean water program and 
the Safe Drinking Water Act. The quality of America's rivers 
have improved enormously.
    Unfortunately, in the 1980's, the Clean Water Act funding 
was changed and as a consequence cut back rather sharply, and 
so the progress that was made in earlier years has been slowed 
down. The kind of things that Mrs. Chenoweth talked about just 
a few moments ago are the result of that.
    If we had continued to fund the clean water program at the 
rate that it was originally envisioned and which was supported 
by ear-

lier administrations, we would have rivers today that although 
they are a lot cleaner than they were, would in fact be even 
cleaner than they are. We need to go back to that program and 
reassess it. I hope that this Congress will address itself to 
that issue, that we will adequately fund those programs.
    Is the gentleman signaling me?
    Mr. Miller. I just want to know if the gentleman would 
yield for a moment when he is done.
    Mr. Hinchey. Yes.
    Mr. Miller. I just want to say that the heritage corridor 
area that you spoke of that we dealt with last session is 
interesting, because it started out much the same way with an 
awful lot of opposition from people. But when we started to run 
out of time in the session, there was no end to members that 
wanted to make sure that their local communities in fact 
received that designation.
    In this session, we now have one of the strongest opponents 
of that legislation seeking extra-legislative measures by which 
to get an area included that he fought so hard last year to get 
excluded.
    I think when people start to understand the nomination 
process and the work that local communities go to to get this 
designation, I think we will find that ten rivers will be a 
limitation, given the interest of local communities and Members 
of Congress.
    Mr. Hinchey. I thank the gentleman for that observation. I 
think it is very important. My time is almost over. I will just 
end by again saying to the representatives of the 
Administration here, my thanks to the Administration, my thanks 
to the President for this initiative.
    I think it is an extraordinarily positive and powerful one, 
and I hope that the Congress will address itself to it. There 
will be no impediment to its enaction because I think the 
American people want this project and they want it badly.
    Mr. Hansen. The gentlelady from Washington, Mrs. Smith.
    Mrs. Smith. Thank you, Mr. Chairman. I guess I have had a 
different experience. My phones have been ringing off the hook 
in my district offices from all over the State of Washington 
with people very concerned who happen to live along the 
Columbia River.
    They have watched several Federal initiatives take their 
property. One whole section cannot use their property even 
though these people have paid taxes for years. They can't even 
paint their own homes the color that would be their choice 
because it is within so many miles, not even visible of the 
river.
    It has gone so far that they are wondering what this next 
Federal intervention will be, because you see, when the Federal 
Government does this, it starts losing reasonableness. The 
common sense of the people who also love the river, rely the 
river for families to be able to eat. This is the area that I 
come from.
    We have a little problem with those from other States 
around the Nation saying that they have to move in the Federal 
Government to take care of our beautiful State. We have 
cooperative agreements with other States of Idaho and Oregon. 
We care deeply. This is our State. My grandchildren fish on the 
river. We boat on the river. Most of my family relies on the 
river.
    We not only don't share the values of the President. We 
share the values. Where we differ is this, do we believe that 
we care more than the President for where we live? Does he 
really believe that we are so irresponsible, we who live in 
those two States, that he has to bring in 12 Federal agencies?
    I guess this is the question I am going to be looking to 
have answered today. If this program is indeed voluntary as it 
says, nonregulatory, community-defined, and honorary, why do we 
need the Federal Government, in fact 12 Federal agencies, 
involved in this?
    We really love our State. We care for our environment. Our 
family plans on living there for many years, and I just can't 
believe that the President who lives here cares more about it 
than we do.
    I will be looking for that answer during the testimony and 
looking forward to reassuring the folks in my State that they 
are not going to just see the big hand of government from the 
East Coast come again, tap them on the shoulder, and say we 
certainly know best.
    Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. I have no statement, Mr. Chairman.
    Mr. Hansen. Thank you. We have two Members of Congress who 
are with us who we would like to hear from, Mr. McHale from 
Pennsylvania. We will turn the time to you and then to Doc 
Hastings from Washington.

  STATEMENT OF HON. PAUL McHALE, A REPRESENTATIVE IN CONGRESS 
                 FROM THE STATE OF PENNSYLVANIA

    Mr. McHale. Thank you, Mr. Chairman, and distinguished 
members of the Committee. I am honored and pleased to be here 
this morning. I will have a formal statement for the record, 
but if I may in the next 5 minutes, I would like to simply 
summarize my testimony.
    Although my testimony is going to focus on one river, the 
Lehigh River, I think in many ways the story of the Lehigh is 
the story of our Nation's rivers. My purpose in appearing 
before the Committee today is to warmly and enthusiastically 
endorse the American Heritage Rivers Initiative.
    The distinguished author, Norman McLane, once wrote, 
``Eventually, all things merge into one, and a river runs 
through it.'' That phrase describes not only a wonderful book, 
it also describes my congressional district, a region of 
eastern Pennsylvania shaped socially, economically, and 
environmentally by the Lehigh River.
    A good friend of mine, Dennis Shaw, once wrote the 
following description of the Lehigh, ``With its headwaters in 
the Pocono plateau, the Lehigh River drains an area of 
approximately 1,364 square miles containing parts of present 
day Berks, Bucks, Carbon, Lackawanna, Lehigh, Luzerne, Monroe, 
Northampton, Pike, and Schuykill Counties.
    The river flows south and east for 75 miles before joining 
the Delaware, the forks of the Delaware, in Easton, 
Pennsylvania. More than 1,000,000 citizens live and work within 
the Lehigh watershed.
    Mr. Chairman, my commitment to the protection and the 
restoration of the Lehigh River is not based on an abstract 
study of history. Within the past month, I have canoed the 
Lehigh's rapids, fished its waters, camped on its banks, and 
hiked more than ten miles along its shores. I have lived within 
a mile of the Lehigh River my entire life.
    We are a community defined both literally and symbolically 
by the Lehigh River. The Act of Assembly of the Pennsylvania 
House of Representatives dated March 6, 1812, defined Lehigh 
County as follows, ``That and all that part of Northampton 
County being within the limits beginning at the Bethlehem line 
where it joins the Lehigh River; thence along said line until 
it intersects the road leading from Bethlehem to Lehigh Water 
Gap.''
    Literally, the county where I live is defined by the Lehigh 
River. Modern history along the Lehigh reflects a checkered 
past, including long periods of short-sighted greed, 
unsustainable consumption, and environment abuse.
    Mr. Chairman, today in my brief testimony, I am not going 
to give you a complete environment or social history of the 
Lehigh River, but just let me point out a couple of critical 
dates.
    In 1740, David Nitchman was the first European to come and 
settle in our community. At that time, the area where I now 
live was described as follows, ``It was wild and a forest, at a 
distance of 50 miles from the nearest town, and only two houses 
occupied by white people. No other dwellings were to be seen in 
the whole country except the scattered huts or wigwams of 
Indians.'' Here they commenced a settlement, Bethlehem. That is 
my home town. That is where I live today. That is not some 
Federal abstraction. That is the community in which I am 
raising my children.
    On May 6, 1772, a record catch of 5,300 shad were harvested 
in the Lehigh River about a half-mile from where I live today, 
but in 1829, we turned a corner. It was a year of decision, in 
some ways positive and in some ways quite negative.
    John James Audubon, the distinguished naturalist and 
artist, spent 6 weeks in the upper Lehigh painting and studying 
that portion of the river, but in that same year, the Lehigh 
Coal and Navigation Company constructed a dam at the forks of 
the Lehigh where it flows into the Delaware River, permanently 
impeding the flow of shad and their annual migration up the 
Lehigh.
    By 1872 when coal had been discovered in northeastern 
Pennsylvania, 1,000 canal boats travelled the canal parallel to 
the Lehigh River transporting that coal to Philadelphia and New 
York, and there were consequences from that.
    By 1953, there were no shad caught in the Delaware. By 
1968, the pollution block in Philadelphia meant that the shad 
could not spawn as they had historically spawned up the 
Delaware.
    By 1970, we again turned a corner with the passage of the 
Clean Streams Act. In that year, the pollution of the Lehigh 
had become so bad that an entire five-mile stretch of the river 
would not sustain aquatic life.
    I remember what that was like 25 years ago. I witnessed a 
river that had become an open sewer.
    In the past two decades, we have seen a river restored. 
Having spent 200 years destroying the natural beauty, the water 
quality, and the aquatic life of the Lehigh River, our 
community has recently dedicated itself to a more worthy goal, 
40 years of river restoration.
    Where do we go from here? The Lehigh River is now part of 
the National Heritage corridor with modest annual funding 
through the Department of the Interior. There was a management 
action plan that was approved in 1994, and I strongly support 
the continuing efforts in the private sector as well as the 
public sector to restore this great river.
    All of the existing public and private efforts to protect 
and restore the Lehigh River will be dramatically reinforced by 
the American Heritage Rivers Initiative.
    Mr. Chairman, if I may with your indulgence, have one more 
minute.
    I believe that this program is the single most important 
conservation effort proposed to date by the Clinton 
Administration. The more efficient and effective delivery of 
existing Federal services and expertise, the sharing of river 
restoration experience, and the availability of river-related 
data via the Internet and a well planned web site will prove to 
be a tremendous aid in the environmental protection, 
recreational improvement, and economic development of the 
Lehigh River.
    The American Heritage Rivers Initiative is in the 
conservation tradition of Teddy Roosevelt, Gifford Pinchot, and 
Rachel Carson. It deserves the support and the funding of 
Congress.
    Finally, Mr. Chairman, we who live, work, and are raising 
our families along the Lehigh recognize that there is a reason 
why our region has become known worldwide as the Lehigh Valley. 
In the words of Norman McLane, a river runs through it.
    [The information referred to may be found at end of 
hearing.]
    Mr. Chairman, I thank you for the opportunity to appear.
    Mr. Hansen. I thank the gentleman. The gentleman from 
Washington, Mr. Hastings.
    Mr. Hastings. Thank you, Mr. Chairman, and I appreciate the 
courtesy that the Committee has given me to sit here.
    I want to just mention a couple things real briefly. I 
live, of course, in an area where the Columbia River flows 
through, and specifically in the tri-city area, we would like 
to enhance our river shore there, and there was a consultant 
that came through and suggested very strongly that perhaps the 
local community look at the Heritage River Initiative that is 
being proposed.
    I sent a letter to them and said, we don't know what really 
is in there before you pursue this. Maybe you ought to look and 
see what it is all about.
    I just received letters back from one of the commissioners, 
and actually, it is signed by all the commissioners in one of 
the counties that is impacted, Benton County, and if I may 
quote one sentence here, they say this, ``Much of this 
activity,'' regarding the American Heritage Rivers Initiative, 
``has taken place with very little public information or 
understanding about the initiative or its potential 
ramifications,'' which I think is true.
    There is another local organization that is looking into 
this, because there is a suggestion that has been made that 
tourism will increase. We have a tri-cities visitor and 
convention bureau that has been very active for 25 years in 
this area. They sent me a letter and they just make this 
statement, and I will quote, ``The infor-

mation we have received has made us less inclined to pursue the 
President's initiative.''
    Now, the reason I mention this, and this kind of reflects 
the comments that I have heard certainly on this side of the 
aisle, as we go down this path, is that the question that at 
least the local people have in my view, and I would like to 
know if--certainly, I will listen to the testimony to see if 
this could be answered, is the unintended consequences that 
happen because we have legislation that is supposedly warm and 
fuzzy and nice for local areas, but as we go down the line, 
something changes, and I just may add with my friend from 
Pennsylvania and his testimony, clearly from his perspective, 
this is a conservation initiative. Clearly from his 
perspective.
    I can tell you from the west if that is the main 
initiative, then I have some great doubts that this ought to be 
a conservation initiative. Clearly, we don't understand where 
the Administration is going on this, and I would certainly like 
to see that clarified.
    Mr. Chairman, thank you again for the courtesy and I look 
forward to the testimony that will be forthcoming.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon, my 
colleague from the third district.
    Mr. Cannon. Thank you, Mr. Chairman. Like many of my 
colleagues, I also have considerable concerns about the real 
import of the American Heritage Rivers Initiative.
    Americans today unfortunately do not place a great deal of 
trust in the Federal Government. Much of their cynicism is 
fueled unfortunately by experience.
    For instance, last fall, this Administration in order to 
pick up a few votes in California disregard the law, the Utah 
congressional delegation, and the people of Utah in secretly 
crafting a massive 1,700,000-acre national monument in southern 
Utah, entirely within my district.
    All of this was done in the dark and without any public 
input. No wonder my constituents are cynical about this latest 
proposal by the Administration. This proposal is built on the 
premise of trust us. We in Utah know about Federal agencies and 
their false assurances and empty promises.
    My fear and that of my constituents is that this program is 
nothing more than a thinly veiled attempt by the Federal 
Government to grab more regulatory power. This hollow program 
offers no new money for real solutions for these communities.
    Instead, the initiative as proposed by Council on 
Environmental Quality would give participating communities 
$100,000 to hire a government bureaucrat, and for what purpose? 
To help clean up rivers? No. To help restore historic landmarks 
or landscapes? No.
    In fact these bureaucrats, so-called river navigators, have 
one primary purpose, slopping at the Federal trough for 
possible taxpayer funds.
    America's rivers and associated communities do need 
improvements, but the solutions will come from our communities, 
from our people, and not from river navigator-types.
    This initiative offers our towns and cities no real 
answers, no real plan. That is why the American Heritage Rivers 
Initiative and the river navigators should be set on the 
appropriate course--downstream.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you very much, Mr. Chairman. Do you 
suppose we might take advantage of the fact that Mr. McHale is 
here and perhaps question him inasmuch as he just testified? Is 
that in order, as opposed to making statements at the moment?
    Mr. Hansen. Would you repeat your question?
    Mr. Abercrombie. I said, do you suppose we might take 
advantage of the fact that Mr. McHale is here testifying?
    Mr. Hansen. Mr. McHale has already given his testimony, but 
you have 5 minutes. If you would like to have an interchange 
with Mr. McHale, by all means, use your time.
    Mr. Abercrombie. Thank you very much.
    Good morning, Mr. McHale.
    Mr. McHale. Good morning, Neil. How are you?
    Mr. Abercrombie. Very fine, thank you.
    In your statement, I missed the first part of it, and you 
may have covered it, but I want to refer to something that Mr. 
Hansen and I believe others have commented on, and to get your 
reaction.
    Obviously, you are in favor of carrying forward with this 
initiative. Now, taking into account or accepting for 
conversation sake that this may not have gone through all of 
the examination and analysis that would be required, and that 
the Committee's hearing today and possibly subsequent hearings 
is entirely in order to accomplish the legislative goals, is it 
your contention that this is something that we should fund in 
addition to whatever funding may already be associated with 
various departments, whether it is the Council on Environmental 
Quality or the Department of the Interior or the Forest Service 
subdivisions within it?
    The reason I ask the question is that Mr. Hansen has 
pointed out that if I understand it correctly, now there will 
be reprogramming of already authorized and appropriated funds, 
and I don't think that is a good idea necessarily, or I think 
it is certainly something that should be examined. I think that 
Chairman Hansen has pointed that out.
    So for conversation sake, if we accept the idea that the 
Heritage Rivers is a good idea, is it your contention that we 
should authorize and appropriate new funds to do that, or is 
the reprogramming you would accept at this stage?
    Mr. McHale. My study of the program would indicate that the 
vast majority of the funding can be reprogrammed.
    What we are talking about here is not the creation of a new 
bureaucracy or the creation of new statutory authority. We are 
talking about the more efficient administration and delivery of 
existing Federal programs.
    For that reason, I think that existing funding would for 
the most part be satisfactory, but I, as an individual Member 
of Congress, would vote for additional funding as necessary to 
supplement the existing funding, although I suspect that amount 
of funding would be very modest.
    I would simply say to Mrs. Chenoweth and other friends and 
colleagues who are skeptical about this program, I strongly 
support your belief that this program should never be imposed 
upon you. I think you deserve credit that there is an extended 
period of comment on this program.
    Once we complete that analysis, however, for those parts of 
the country such as my own that would very much at the local 
level like to participate in this program, so long as we 
adequately protect you from any imposition of the program, why 
not allow us to participate?
    Our rivers in the northeast have experienced for the most 
part a degradation that fortunately has never been inflicted 
upon the rivers of the northwest.
    We have a major challenge ahead of us in restoring those 
rivers, and this program can be a very significant aid in that 
process.
    Mr. Abercrombie. Mr. McHale, I would like to followup on 
that point.
    While there may be some trepidation on some of the members' 
parts with respect to the implementation of this program, isn't 
it the case or would it not be the case in many instances that 
absent Federal assistance, local resources might not be 
sufficient to be able to handle the difficulties that might be 
encountered in comprehensive regional considerations that might 
come up with respect to the restoration, et cetera.
    Mr. McHale. That is absolutely correct. We have a 75-mile 
stretch of river along with 1,000,000 people live. That is 
nearly equal to the population of most of the States that are 
represented before me.
    We have a large concentration of population along a stretch 
of river that has received heavy industrial use over the last 
100 years. We have three major cities, Allentown, Bethlehem, 
and Easton, that are attempting to coordinate that restoration 
and revitalization effort.
    All we want is advice from the Federal Government. We want 
those who will come in with that expertise and at our request 
and to the degree that we solicit, step into our community and 
assist us in a partnership that will ultimately clean up, 
restore, and economically develop a river, the like of which 
simply doesn't exist, for instance, in the State of Idaho, a 
magnificent State where I am about to travel in 2 weeks, and 
where I have spent a great deal of time.
    The rivers of Idaho are very different from the rivers of 
Pennsylvania. We have silt, we have mine drainage. We have had 
a century of pollution where we are making major strides to 
clean up that pollution, but clearly in that process, the 
Federal Government can be a partner.
    Mr. Abercrombie. Thank you very much, Mr. Chairman.
    Mr. Hansen. I will recognize the gentleman from Tennessee 
who did not use his time before for questions.
    Mr. Duncan. I just have one question. Paul, do you have any 
objections to or problems with the Congress voting on this 
before it is done rather than doing it by executive order 
without the Congress voting on it?
    Mr. McHale. Jimmy, I want to protect our rivers, and I want 
to do it in a way that encourages debate, encourages 
congressional participation. Certainly in terms of funding, 
Mrs. Chenoweth is correct. We hold the power of the purse, and 
I think that gives us an adequate safeguard on the substance of 
the legislation, but I have to smile.
    We heard references earlier from Mr. Cannon and some other 
folks about a President taking unilateral action. The President 
of the United States acting without the consent of Congress and 
in fact, deliberately attempting to circumvent the will of some 
Members of Congress, took executive action to protect the 
natural resources of the United States.
    I am not referring to Bill Clinton. I am referring to Teddy 
Roosevelt. Read his autobiography. What is objected to today is 
precisely what Roosevelt did nearly a century ago, and with the 
wisdom of hindsight and history, we now recognize that 
Roosevelt fortunately protected the natural resources of our 
Nation so that we of this generation might be able to enjoy 
them.
    Mr. Duncan. Thank you.
    Mr. Hansen. The gentleman from Pennsylvania, Mr. Peterson.
    Mr. Peterson. I have no comments at this time.
    Mr. Hansen. The gentleman from North Carolina, Mr. Jones.
    Mr. Jones. No comment, Mr. Chairman.
    Mr. Hansen. The gentleman from Puerto Rico.
    Mr. Romero-Barcelo. No comment.
    Mr. Hansen. Thank you. I guess that covers----
    Mrs. Smith. Mr. Chairman, just one question.
    Mr. Hansen. If we may, we will recognize the gentleman from 
California and the gentlelady from Washington, and then let us 
get on with the witnesses, could we please?
    The gentleman from California.
    Mr. Miller. I guess, Mr. Chairman, that Paul is a witness 
here, so we can ask him questions, right? He is a witness.
    Let me just ask you, the way you frame this bill and the 
way I understand it, let me see if we are clear on this.
    My understanding is that local communities at some point 
are going to make a decision to nominate a river for 
participation.
    Mr. McHale. Not only must they nominate, but in evaluating 
those applications, the level of local public support is the 
decisive factor in determining whether or not an individual 
river will be so designated as an American Heritage river.
    For instance, in our case, the Republican mayor of 
Allentown who watched the State of the Union Address came to me 
immediately after that address and said, Paul, this is a 
wonderful opportunity for the Lehigh River. We are attempting 
to develop an entire management plan for that watershed. Could 
you please do what you can to intervene with the Federal 
Government so that we at the local level by nominating our 
river can have it be designated as one of the first ten.
    I really don't think and I appreciate the sensitivity and 
respect it, but I really don't think that the issue will be the 
imposition of the status on any local community. I frankly 
think you are going to see enormous competition among all of 
the potential rivers to be designated for those ten that will 
be actually be chosen.
    I don't think anyone will have this designation forced upon 
them.
    Mr. Miller. As I see the record developing, it starts to 
appear that you are essentially almost going to have to have a 
consensus in the local community.
    Mr. McHale. Yes. From what I have read, and of course, the 
Administration witnesses can amplify this, I can't imagine that 
a river would be chosen for this program over the objection of 
the local Member of Congress.
    Mr. Miller. Maybe we should give the local Member of 
Congress the veto, and we will find out strong they are.
    Mr. Hansen. That is an excellent idea.
    Mr. Miller. That would be a great idea. We have kind of 
been here before. I mean, we have scenic highways, and we have 
heritage highways, and we have now heritage corridors. We had a 
lot of early opposition to these things, and then hindsight, 
people in communities decide they made the right decision.
    I remember being up in the Rocky Mountain National Park out 
on the back side of it. They have a scenic highway designation 
that was hard fought coming up to one of the rivers there. An 
old fellow got up out there from his bar, and he fought this. 
He led the local organization, he put up all the window signs, 
he organized the ranchers, said that this was a Federal land 
grab and so forth. But it was a fact of life a couple years 
later. When we were in this meeting out there trying to work 
out who was going to feed the wildlife in the national park, 
the farmers or the Federal Government, somebody asked him what 
he thought now about that scenic corridor, that scenic highway, 
and what was the best thing about it. He said the best thing 
about it was it puts butts on his barstools in the bar that he 
runs.
    The fact of the matter is what local communities have found 
out if they do comprehensive planning, organization, and 
promotion, that many of these assets become huge economic 
engines for activity and for income for these communities and 
these designations.
    I think you are right. I think there is going to be serious 
competition to try to get in under the wire of ten. And I also 
think that those of us who have lived on rivers and watched all 
the disjointed decisions by all of the Federal agencies, all 
the lack of communication between the agencies, it would be 
wonderful to have a navigator.
    I am just going through a base closing. I went through one 
before. We didn't have any help from the Administration. This 
Administration, we have a navigator for that base closing and 
you know what? Every time the city and the county and the local 
agencies have a problem, they go to that fellow from the Navy. 
He works it out with the Fish and Wildlife Service; he works it 
out with the State of California; and we are so far ahead of 
schedule, it is making our heads spin. That is the difference 
in how you can approach this.
    We see it in brownfields. We see it in all kinds of 
approaches where communities have been left to fend for 
themselves, and now somebody comes along and offers help, and 
somebody wants to act like it is some grand conspiracy.
    Fine, opt out, but I think you are going to find that 
communities are going to want to opt into this. We are asking 
for $500,000,000 to restore the river that runs by my 
congressional district because of a lot of individual 
disjointed decisions that have been made in the past, and 
nobody thought about the comprehensive impact, and now, we have 
an ecological disaster. Thank you, Paul.
    Mr. McHale. Thank you very much.
    Mr. Hansen. Thank you. The gentlelady from Washington will 
be our last question, and then we are going to go to our 
witnesses.
    The gentlelady from Washington is recognized for 1 minute.
    Mrs. Smith. Thank you. I think as I listen to this 
discussion and as I was listening to you, you said it OK 
because we looked at history for the President or other 
authorities to step outside the balance of power of the 
Constitution, which I call breaking the law.
    As a budget person, that is my background both at the State 
and corporately. If I take this amount of staff, and I have the 
document of the staffing, and I take it out of other areas and 
I put it to a new area, I am stating they are overstaffed; the 
other areas are overstaffed.
    Now, this Administration testified they needed more people 
in these areas, so what they are saying now is we are going to 
take them out of other areas to start this new program; 
therefore, the President has decided to replace Congress in the 
Constitution. That is not OK.
    Do you believe these other programs are overfunded enough 
to transfer all this staff or are you really saying, and this 
is a little bit disturbing as a colleague, that we can step 
aside as a Congress and say yes, whether it be a Republican or 
Democratic president, that they can start a new program; 
authorize it, knowing full well that they are violating the 
separation of powers where Congress is supposed to authorize so 
we protect the people at home from one person having all the 
power?
    I very rarely hear another official say it is OK in 
history, therefore, it is OK now to violate the Constitution, 
so I guess I have to ask you as a colleague, what other 
programs and areas do you believe that the President should be 
able to step out and say I am going to start a program without 
a vote of Congress, because we might be setting a precedent 
here that there will be others coming and saying we don't need 
Congress. You might not have to run again.
    Mr. McHale. Mrs. Smith, I have taken an oath to the 
Constitution of the United States as a member of the State 
legislature, a Member of Congress, and as a United States 
Marine on more than a dozen occasions throughout my lifetime.
    I have to say that respectfully, your paraphrase of my 
testimony was wholly inaccurate.
    We have the power of the purse under Article I of the 
Constitution. No chief executive, Bill Clinton or anyone else, 
should have unilateral power.
    We have considerable authority through the appropriations 
process to approve or disapprove action taken by a President of 
the United States. I was simply pointing out with historic 
accuracy that in the autobiography of Teddy Roosevelt, the kind 
of action that has been undertaken by President Clinton and has 
been criticized in this committee room today was precisely the 
same action that Teddy Roosevelt undertook and about which he 
wrote with pride.
    One hundred years later, if Roosevelt had not taken that 
action, almost a century later, we would not enjoy the forests 
of the northwest that were protected from greed and 
extravagance and consumption, but for Teddy Roosevelt's 
intervention.
    We have enormous power under the Constitution. I praise 
Mrs. Chenoweth, although I would never vote for her bill. It is 
constitutionally proper in that she seeks to terminate funding 
in the exercise of our authority under Article I of the 
Constitution.
    I believe the President, and you may disagree with his 
decision, but I believe the President can exercise authority 
under Article II that allows him to create this program. We 
then decide under Article I whether we are willing to pay for 
it.
    Mrs. Smith. Then I guess the answer you have is this should 
not go forward unless Congress votes for it, and I think that--
--
    Mr. McHale. For the money for it, yes.
    Mrs. Smith. [continuing] is the point I wanted to get to, 
that he has authorized a new program. He does not have the 
money by his own testimony and those that are coming before us, 
because they have said they don't have enough money in their 
programs; therefore, this cannot go forward constitutionally.
    As you said, you took an oath to the Constitution without a 
vote of Congress, and that is the point I want to make. We can 
vote here, but should we only need one person, the Founding 
Fathers would have chosen a king. Therefore, I am going to be 
objecting unless we debate this and we all decide to start this 
new program or not in the Congress.
    That is probably the most important thing that we address 
today. I appreciate your support of the rivers. I also support 
the rivers, but I also support the Constitution and don't 
believe we should step aside just because it is convenient for 
the moment or because historically someone else did it. Thank 
you.
    Mr. Hansen. We appreciate Mr. McHale coming before us our 
good friend from Pennsylvania, and the comments that you have 
made.
    Mr. McHale. Mr. Chairman, thank you.
    Mr. Hansen. We will go to our witnesses. I am going to 
editorialize for 30 seconds.
    This is to my good friend from Pennsylvania. I, too, have 
great feelings about Teddy Roosevelt, one of my heroes in life. 
He had the 1906 antiquity law, however, we have a park bill in 
1915 and 1916; the 1969 NEPA; the 1964 wilderness; and 1976 
FLPMA, which in my opinion give 1,000 times more protection 
than what President Roosevelt did, even though I think he was 
right in what he did, and I applaud his actions.
    I think we have much better laws now to protect. In fact, 
if anything, the 1906 antiquity law takes away protection as we 
have seen in southern Utah.
    With that, we will excuse you and ask our next panel to 
come up. We are very honored to have with us our two 
Secretaries, the Honorable Bruce Babbitt, Secretary of the 
United States Department of the Interior; the Honorable Dan 
Glickman, our former colleague, Secretary of the U.S. 
Department of Agriculture. We are honored to have Kathleen 
McGinty, chairman of the Council on Environmental Quality, and 
we appreciate our three witnesses being with us.
    Dan Glickman, who is probably the most articulate person on 
tort reform on light aircraft that I have ever met in my life, 
and we are grateful for all three of them.
    Kathleen McGinty, we will start with you.

      STATEMENT OF KATHLEEN A. McGINTY, CHAIR, COUNCIL ON 
   ENVIRONMENTAL QUALITY, EXECUTIVE OFFICE OF THE PRESIDENT, 
                         WASHINGTON, DC

    Ms. McGinty. Thank you, Mr. Chairman and members of the 
Committee for the opportunity to testify today on the very 
important American Heritage Rivers Initiative.
    Mr. Chairman, this initiative represents a historic 
opportunity to support efforts to revitalize the communities 
that surround 3,500,000 miles of rivers and streams that flow 
throughout our Nation.
    American Heritage Rivers focuses on the powerful link 
between healthy rivers and healthy communities. As prescribed 
and called for by the National Environmental Policy Act, this 
initiative is built on the fact that environmental, cultural, 
and economic goals are inextricably linked and that citizens' 
voices have to be central to Federal action.
    Why rivers? Because, Mr. Chairman, members of the 
Committee, as Mayor Richard Riordan has said of the Los Angeles 
River, ``Rivers often represent the heart of our city or 
community's spirit. Rivers, with their beauty, their history, 
their lore, their economic force, provide a centerpiece, an 
organizing principle around which disparate elements of a 
community can come together to work toward the economic, 
cultural, and environmental revitalization of their place, 
their home.''
    Mr. Chairman, I have had the privilege and opportunity of 
seeing this happen in every part of our country. My own home 
town is Philadelphia.
    Twenty years ago, the Delaware waterfront was no place you 
wanted to be, crime and drugs, trash and decay. But as the 
bicentennial of our Nation approached, that river captured the 
imagination of Philadelphians. It had a story to tell, we 
realized, Penn's Landing, George Washington's crossing; it was 
part of what made our city and indeed, our country, great. 
Philadelphians were determined to take that waterfront back, 
push the pushers out, revitalize the historic buildings. 
Revitalizing that waterfront then compelled ideas to take back 
Front Street, Second Street, Third Street with the result that 
all of downtown Philadelphia, now 20 years later, is thriving 
and whole and very much alive.
    Chattanooga, Tennessee, in 1969 was voted America's 
dirtiest city. Today, Chattanooga is hailed as a miracle city, 
as one of America's most livable, and where did it all start? 
With the inspiration of a high school student who said, hey, 
the Tennessee River is a pretty unique and wonderful resource. 
Why don't we celebrate by putting a first-of-its kind fresh 
water aquarium on its banks? Chattanooga did, and now that 
aquarium, and indeed, the entire city, is world-renowned.
    St. Paul, Minnesota, I just visited there with Mayor Norm 
Coleman and some 20 other mayors of the upper Mississippi, 
Republicans and Democrats alike, who gather because of their 
tremendous enthusiasm for this initiative. Mayor Coleman has 
taken to calling St. Paul, St. Paul on the Mississippi, and 
will tell you in no uncertain terms that reconnecting that city 
with its wonderful river was the single most important factor 
that enabled him just recently to convince a major software 
manufacturer to locate in the heart of the city, bringing jobs 
back into that city. The river restored makes that city an 
attractive, exciting, unique, and extremely compelling place to 
be.
    Mr. Chairman, I would like to offer some declarative 
statements on what this initiative is and what it is not.
    It is 100-percent voluntary. Communities don't have to 
participate, and once participating, can opt out at any time. 
It is 100-percent locally driven. This is purely bottom-up. 
Whether to participate and to plan for participation are 
completely under the control and in the hands of local 
citizens.
    It is 100-percent nonregulatory. There are absolutely no 
new regulatory requirements or restrictions of any kind that 
will come as part of this program.
    It is 100-percent in compliance with and indeed compelled 
by the National Environmental Policy Act. Through this 
initiative, environmental, economic, and social concerns are 
finally being integrated and brought into one coherent whole in 
a way that is designed and driven by local communities.
    It is also 100-percent directed by the President and Vice 
President's effort to reinvent government. The initiative is a 
directive to Federal agencies better to serve the citizens that 
the meet, to do more with less, to cut red tape and bureaucracy 
so citizens can access resources that they pay for in an 
efficient and effective way.
    What this initiative is not, it is not an attempt by 
Federal agencies to take on new authorities and 
responsibilities. Rather, it is an effort to execute current 
authorities as those agencies are already directed to do, that 
is, in a coherent and coordinated way, in a way that most 
responsibly expends taxpayer's dollars, in a way that most 
efficiently and effectively serves the citizens of this 
country.
    It is not an attempt to take anyone's private property. 
Private property rights will in no way be adversely affected 
through this effort. To dispel any notion to the contrary, 
language on protecting private property rights penned by 
President Reagan will be included in the final program.
    Finally, this initiative is not a program of the United 
Nations. No foreign government or governmental entitles are 
involved in any way, either directly or as some have been 
concerned, by way of deploying surveillance systems of some 
kind. There is just nothing of the kind involved in this 
initiative.
    Mr. Chairman, we have consulted far and wide on this 
initiative. This has been a very open and public process. 
First, of course, the President announced it in the State of 
the Union so that all could be aware.
    Second, we immediately established a home page and a 
hotline on this initiative, and we have received 31,000 hits to 
that home page.
    Third, we have held more than a dozen meetings in every 
region of the country where hundreds of people representing 
every walk of life, business, agriculture, arts, and education; 
Federal, State, local governments; and environmental concerns 
all participated.
    Fourth, we have sent senior Administration officials to 
every meeting we have been invited to by others on this 
initiative. Mayors, Members of Congress, the American Farm 
Bureau, property rights groups, the Western States Coalition, 
to discuss this program and there have been at lest ten such 
meetings, Texas, Washington State, Iowa, Missouri, et cetera.
    Fifth, we published a Federal Register notice seeking 
comment on every aspect of this program and we have now 
extended the comment period so now we will have received more 
than 90 days of comment on the program.
    Sixth and finally, we have had at least 14 meetings on this 
program on Capitol Hill.
    Mr. Chairman, this ia a positive initiative. It is based on 
principles this Congress and this Committee have espoused. It 
is locally driven. It cuts bureaucracy and red tape. It brings 
economic and social concerns in environmental decisions. Purely 
and simply, it is government at the service of citizens.
    Thank you very much, Mr. Chairman.
    [Letter to Kathleen A. McGinty may be found at end of 
hearing.]
    [Statement of Kathleen A. McGinty may be found at end of 
hearing.]
    [Letter from Kathleen McGinty to Hon. Don Young may be 
found at end of hearing.]
    Mr. Hansen. Thank you. Secretary Babbitt, we will turn the 
time to you, sir.

STATEMENT OF HON. BRUCE BABBITT, SECRETARY, U.S. DEPARTMENT OF 
                  THE INTERIOR, WASHINGTON, DC

    Mr. Babbitt. Mr. Chairman and Committee members, I 
appreciate the chance to come back and appear before this 
Committee and I would like briefly to describe for you the 
roots of my involvement in this program.
    It really began back in 1995 when this Congress was taking 
a wrecking ball to the environmental laws of this country. I 
responded by leaving town for considerable periods, because I 
felt that it was really time to get out and reconnect with the 
American people and see what I could learn about how the 
environmental laws of this country were being used.
    I very quickly discovered that there was something new 
happening in this land, and you have already heard from the 
Congressmen and from Katie about this phenomenon.
    Citizens all over this country are turning back to 
rediscover their heritage and their roots in the rivers that 
nourish their communities and that are entwined in the history 
of this country.
    I spent 3 days going up the Hudson River that summer in the 
area described by Mr. Hinchey, and I saw a remarkable 
renaissance in communities like Poughkeepsie, Troy, and 
Peekskill where waterfronts are literally being revived, and 
what I heard from the citizens of those communities was that 
part of that grassroots success in Poughkeepsie was their 
ability to go to the Department of Housing and Urban 
Development, not in Washington, but at the local level and to 
commandeer HUD resources and put them to use for their vision.
    Up in Troy, I heard from a community, which has restored 
its waterfront, about how they had gone to the Environmental 
Protection Agency and brought those programs down and connected 
them with that river. I heard communities talking about the 
Corps of Engineers and how the Corps, at their request, had 
joined in these partnership efforts.
    I spent a summer day on the Susquehanna River in 
Pennsylvania, floating down to Harrisburg and then floating 
further down where I saw, as the Congressman intimated, on the 
Lehigh River, a most extraordinary sight of that river. The 
shad runs are now proliferating up that river, and what the 
citizens in those communities told me was that they had gone to 
the Fish and Wildlife Service and to the National Marine 
Fisheries Service, not in Washington, but in their own 
communities and the State of Pennsylvania and said, you are the 
Federal Government, but you are here to serve us, and we are 
going to show you want we need in this community.
    Several months ago, actually in June of this very year, I 
was out on the Cuyahoga River at the request of Congressman 
Regula. I had visited the Cuyahoga a year before, because I 
wanted to go back to where the river burned and to see what had 
been happening out there in the last few years.
    Of course, what I found, where the river burned was a lake 
restored, and out on the Cuyahoga, I saw an entire new 
riverfront development. I saw fishing boats out on the mouth of 
that river. I saw blue herons sweeping down across the river in 
search of a meal.
    Congressman Regula took me upstream, 100 miles upstream, to 
a national recreation area. Beyond that were the headwaters of 
the Cuyahoga. I listened and met with citizens who told me that 
as part of their effort to restore their river, they had gone 
to the National Park Service--to the rivers, trails and 
conservation division of the service--and to the heritage and 
historic preservation groups and brought them into the 
community and said, we want you to direct your efforts in aid 
of our vision, and it is happening. The communities are driving 
it. They came to this Congress last year and had their efforts 
translated into legislation in the form of a heritage 
conservation area.
    Two more examples, because unlike the Congressman from 
Pennsylvania, I believe these are western issues, and I want to 
tell you, as a westerner, I believe that western communities 
are as interested in this President's initiative as any 
communities in the east.
    I was out in Seattle during the course of the summer at a 
place called Piper Creek, which runs through suburban Seattle 
where I saw an entire high school and its teachers with their 
kids out on Piper Creek saying we believe we can restore the 
salmon running out of Puget Sound up Piper Creek into Seattle. 
They took me out one summer day, and they actually showed me 
that the salmon had returned for the first time within memory 
of anyone in Seattle.
    I said how did you do that, and they said we went to the 
Environmental Protection Agency and got assistance at our 
request to clean up a wastewater treatment plant. Then we went 
downtown to the Fish and Wildlife Service and said what do we 
need to do to get the salmon spawning in this stream.
    Lastly, I would like to say just a word about the McKinsey 
River in Oregon. This is a tributary of the Willamette River 
which runs right by Eugene and several other cities. The 
citizens have come together and formed what they call a 
watershed council. It has on it county commissioners, 
representatives of the local utility companies, educators, 
citizens, and representatives from, I think it is Weyerhaeuser, 
but, at any rate, a local forest products company. They have 
set out to restore the entire river. It is a magical place when 
you see the steelhead and the salmon spawning and they were in 
danger of losing them. They are out there restoring wetlands, 
planting alders and poplars along the banks of the river, 
working with the county to put together a riparian protection 
plan.
    I asked them what can we do, and they said, Mrs. Smith, 
they said we don't need any programs, any new programs. What we 
need is access to existing resources. They said, we have gone 
to the Forest Service, the Natural Resource Conservation 
Service, and they are helping us do this. We have gone to the 
Bureau of Land Management, and they are helping us inventory 
the landscape around this river, and we have received some help 
from the USGS. They are providing us hydrographic data sets and 
maps.
    It was at that moment that I realized what this concept is 
about. It is not about new programs. It is, as Katie McGinty 
said, about empowering citizens to access existing programs. 
You have voted to help them, and we are reconnecting with their 
effort.
    That is, of course, the reason that the President in his 
State of the Union address--I would like to showcase these 
examples, and I would like to help local citizens get better 
access to these resources by coordinating their availability. 
And it is in that spirit I come here simply to recite my 
experience and to say I think this is an important moment in 
which this Congress, by helping us with these programs, can 
come to the aid of your constituents all over this country.
    Mr. Hansen. Thank you, Mr. Secretary. Secretary Dan 
Glickman, we will turn the time to you, sir.

 STATEMENT OF HON. DAN GLICKMAN, SECRETARY, U.S. DEPARTMENT OF 
  AGRICULTURE, WASHINGTON, DC, ACCOMPANIED BY JOHN ZIRSCHKY, 
 ACTING ASSISTANT SECRETARY OF CIVIL WORKS, DEPARTMENT OF THE 
                      ARMY, WASHINGTON, DC

    Mr. Glickman. Thank you, Jim. It is an honor to be here and 
to be here with so many people that I served with before.
    I would just make a couple comments. I hear a couple of 
things being said today. One is, I hear from some folks about 
this distrust of the Federal Government, and I served 18 years 
in this body. I understand that. I would hear that from time to 
time myself.
    The other issue which my colleagues have talked about is 
the issue of empowerment, which is there are communities in 
this country who do use the resources that the taxpayers of 
this country pay every year to try to help themselves, and the 
goal is to try to find a way to give them the right to choose 
how to spend the money in the most effective way possible.
    How do you blend those two things? What we are trying to do 
is to take a program to focus existing Federal resources on 
helping communities achieve their vision for a rivers future, 
not the government's vision, their vision, existing resources 
achieving their vision, empowerment.
    In a way actually, it reduces the kind of distrust there is 
of the Federal Government because it gives them the power.
    Let me tell you, I am involved with an issue on the 
empowerment zones. Many of you in this room have experienced 
it. We have a couple in particular, one in the Rio Grande 
Valley of Texas, and one in the Mississippi Delta where what we 
have done is taken existing resources in very distressed, poor 
areas and given to the communities the power and the authority 
to spend existing dollars, use existing laws to help them track 
jobs, improve their environment, rebuild education systems 
where appropriate, taking the programs that were there that 
were rather hodgepodge and uncoordinated and saying to them, 
you decide how best to coordinate those programs. You talk with 
your representatives from the Mississippi Delta or south Texas 
and they will tell you that for the first time, we actually 
have those programs coming together in a rather meaningful way 
to see economic development.
    In a sense, the American Heritage Rivers program is like an 
empowerment zone for rivers, to give people the authority at 
the local level to spend those dollars and to coordinate those 
resources as much as possible. We call it a river navigator, 
but I would call it a river facilitator to cut through the red 
tape and help obtain technical assistance and funding from 
existing Federal programs.
    The Natural Resources Conservation Service provides most of 
the technical assistance on private lands in this country, 
stream bank restoration, riparian restoration, those kinds of 
things, working with landowners on a positive basis. The Forest 
Service and other agencies do the same thing.
    What this does is provide one-stop shopping, so that people 
can come to basically one place with the mindset and the 
innovation at the local level and say how best can we use these 
Federal resources. This is something we are trying to do at 
USDA generally.
    Historically, we have had several shops out there and every 
county in America advising farmers and ranchers how to do 
certain things, and oftentimes, you would get conflicting 
advice. What we are trying to do at USDA service centers around 
the country is to in fact put in one office folks that serve 
our farmers and rural communities so that the full range of 
Federal help is there.
    In a sense, that is what we are trying to do here on the 
American Heritage Rivers Forum. We do that in our urban 
resources partnership, which is done and many people in this 
room and others have seen this program because it places 
resources directly in the hands of communities together to 
decide how best they can improve their areas in the urban parts 
of this country in terms of resources.
    It is the same kind of thing that we do here, so what USDA 
will do is use our Forest Service, our Natural Resources 
Conservation Service, our extension service, our farm service 
agency and other parts of rural development to help with funds 
and technical know-how.
    We have agencies as does Secretary Babbitt known around the 
world for successfully disseminating the latest science-based 
technologies, information, land management practices, to help 
landowners and communities utilize their resources in a 
responsible way, but it is the local communities that are going 
to decide basically what is the responsible way to use these. 
It is not the Federal Government. We have funds and technical 
assistance to help people to do that.
    I want to repeat a few things before I stop. This program 
is not a new regulatory program. We will continue to support 
voluntary community-led grassroots efforts.
    It is not an expensive new program. We can use existing 
funds to get this done, just using them in a more effective 
way, and it is not a new legal mandate. The initiative will 
operate within already existing programs and legal authority. 
No new authorizations are asked for or are needed.
    Last week, this Congress approved a bill, and I believe it 
came out of this Committee, if I am not mistaken, the Quincy 
Library Group's pilot project. I was actually very much 
involved in that. I went out there to Quincy Library Group and 
talked with them 2 years ago, right after I came to this job, 
and they said to me they had environmentalists, they had timber 
people, they had local community people, and they said we would 
like to come together to see what we can do locally to best 
manage our forests.
    All of you working with them and working with a variety of 
groups approved a bill 429 to one, I believe, which is a 
demonstration of how people with divergent groups, local 
communities, can draw down and lay down their proverbial swords 
and work together to develop a plan that provides environmental 
and fire protection and keep some timber mills open as well.
    I guess what I am saying is that the communities are very 
diverse out there. They are not all of one mindset. They are 
going to sit down together and try to develop a consensus to 
get this done.
    We think this proposal has a great opportunity to empower 
local communities to use resources in a much more effective way 
than they are doing right now. Thank you.
    Mr. Hansen. Thank you very much. I appreciate the testimony 
of the panel.
    I am going to recognize the members in the order they came 
in from majority to minority, and I would appreciate it very 
much if you would stay within your time. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. I just want to commend 
you for your testimony and for the process that you have 
undertaken, and thank you for extending the comment period, but 
for the process that you have undertaken on behalf of this 
initiative.
    Again, the suggestion has been made that somehow, this is a 
surprise, that this is--I guess if you weren't listening to the 
State of the Union, that somehow, this has snuck up on 
everybody. I look at the list of organizations, the national 
organizations that you have notified, from the forest products 
people, the pulp people all over the different States, river 
basins; the Governors' association; the National Rifle 
Association; the sporting goods manufacturers; the tribal 
councils of all the various States and regions and their 
organizations; local regulatory agencies and planning 
associations; towns and townships; various educational and 
environment organizations; various nonprofit organizations; all 
of the water interests; the petroleum industry, the refiners' 
association; the people that basically were brought up around 
the river communities.
    We have all used these rivers at different times for 
different purposes. And a lot of communities are now rethinking 
what is the future of their river, and what can be restored and 
as communities have changed, what additional values can be 
brought to the river or how have values changed in the 
communities from the way the rivers were used in the past.
    I just think that again, this is a very, very welcome 
initiative. Good portions of our Nation are going through this 
kind of rethinking as they are trying to build livable 
communities, as they are trying to get on that list of good 
places to retire, good places to live, a place to take a 
vacation.
    If you walk by the magazine racks in an airport, the lists 
are out, because it is the beginning of summer--where to spend 
your money, where to take a vacation, where to get away from it 
all, where are you safe. Whether they are big urban cities on 
big rivers or whether they are small towns looking to see how 
they can change from one economy to another, they want to 
engage in this process.
    I think to have the Federal Government suggest that we are 
going to try to come in a cooperative manner rather than 
sitting back and waiting for you to come up with an idea, then 
we will whack it around for a few months and bounce it around, 
and tell you we will get back to you later, that we will get in 
on the ground floor is exciting.
    It is exciting. In fact, probably this initiative, as 
creative as it is for the Federal Government, it is probably a 
little bit behind what is going on in local communities. But it 
brings some very added direction in terms of instructing these 
agencies to try and work together for the benefit of these 
communities. If the resources of somebody in a position like 
the navigator can be created, that is a godsend when you are 
trying to do this kind of comprehensive planning.
    I just think that the fact that again, we have two of the 
lead agencies, departments, right here in front of us that have 
an awful lot to say about the life cycle of these rivers, from 
the headwaters to the oceans, between the Interior and 
Agriculture, there is an awful lot you can do to help 
communities. There is an awful lot you can do to just sort of 
go along with business as usual.
    We would prefer that you try to help the communities, and I 
guess there will be an effort to knock this off the track. That 
seems pretty clear. I only hope that Members of Congress fully 
understand, Ms. McGinty, as you have pointed out, the voluntary 
nature of this: the fact of the community seeking these 
resources, seeking this help, that that is the initiator. It is 
not the Federal Government coming in and directing them how to 
do this or not do this, but there is certainly ample evidence 
that there is a lot of enthusiasm in the various river 
communities for a program of rehabilita-

tion in some instances or just recognizing the culture and 
history of these rivers.
    I come from the San Francisco Bay area, and we come in 
through the Delta from the Sacramento and San Joaquin Rivers, 
and one of them is dead and runs into the ground, and the other 
is in a lot of trouble. In the State, we have obviously put a 
lot of value on these rivers in the last couple of years. With 
the help of the Federal Government, as I said, we are talking 
about $500,000,000 to try to go back and correct some of the 
mistakes that everybody now acknowledges were made.
    I think if we would have had a process like this in the 
beginning where we could have thought about in a comprehensive 
way what some of the results might have been, how much money we 
could have saved, and maybe some of the parts of that river 
community that could have been preserved.
    We used to have a wonderful Italian fishing community, 
commercial fishing industry, that just went by the wayside 
because we weren't smart enough about the refineries and their 
impacts on the rivers. Today, we have cleaned up the river, but 
there is nobody left to fish in it in terms of the skills and 
the talent.
    There is a lot to be learned from this initiative. I would 
hope that people would give it very, very serous consideration. 
I certainly applaud the President for this and for the time and 
effort that the three of you have put into this to make a very, 
very user-friendly effort by the Administration.
    Thank you for your testimony.
    Mr. Hansen. Thank you. The gentleman from Montana, Mr. 
Hill, is recognized for 5 minutes.
    Mr. Hill. Thank you, Mr. Chairman. Coming from the State 
with the original river that runs through it, Montanans take 
great pride in their rivers and as a matter of fact, have taken 
great strides in making sure that our rivers are protected. I 
think we have among the most difficult, if you will, or 
toughest water quality standards in the Nation.
    I just have a few questions, and I will start by saying 
that with all the success stories that you have outlined, 
perhaps that would make the most compelling argument that you 
don't need this program rather than that you do need it.
    I can certainly see that in many instances, people believe 
that the myriad of bureaucracy that we have in the government 
makes it difficult to solve problems when people want to draw 
together to do that.
    Katie, you have held briefing sessions around the country 
on this program, as I recall. Is that correct?
    Ms. McGinty. Yes. We have had formal meetings in more than 
12 places in every region of the country.
    Mr. Hill. Have you done any briefing sessions at all in 
Montana with any groups on this issue?
    Ms. McGinty. I could get back to you on that. I don't know 
off the top of my head that one has been in Montana, but there 
certainly has been one in that region of the country.
    Mr. Hill. I would appreciate if you would make that 
information available for the record.
    Ms. McGinty. Sure.
    Mr. Hill. I would also be curious about who got invited to 
those meetings and how the list of people that was invited was 
selected and that sort of thing so we would have that for the 
record.
    If I could just ask a few questions about this being a 
collaborative process, because I am a big proponent of the 
collaborative method of dealing with, I guess, what you would 
say is the gridlock with regard to the conflict between 
economic and environmental policy with regard to the country.
    When you talk about seeking designation, would, for 
example, you insist on having the Governor of the State's 
support before you would designate a river in a State a 
heritage river?
    Ms. McGinty. A central element of this program is that any 
applications that come forward, and again, they come forward 
from the grass roots needs to show broad-based support and a 
central piece of that will be the support of elected officials.
    Mr. Hill. But would the Governor's support be important, do 
you think?
    Ms. McGinty. It would be of extreme importance.
    Mr. Hill. So if the Governor was opposed, would you say 
that that would automatically suggest to you that you don't 
have broad-based public support?
    Ms. McGinty. I would say that would be an extremely high 
hurdle for that particular river.
    Mr. Hill. How about local governments, county and city 
governments? Would you be seeking the county and city 
governments--would that be a necessary element?
    Ms. McGinty. Again, this is bottom-up, so we will be 
seeking no one on this, but if an application comes forward, we 
would very much expect to see, and the Federal Register notice 
is very clear on this, letters of support or endorsement from a 
broad spectrum, including local representatives and locally 
elected officials.
    Mr. Hill. So if local governments were opposed and a 
citizens' group wanted a listing, in your judgment, would that 
rule out then a listing designation?
    Ms. McGinty. I think it would make it very difficult. That 
would be an extremely high hurdle for that particular 
application.
    Mr. Hill. And the citizens' group that we are talking 
about, these grassroots groups, do you have in mind or do you 
intend to have in the rules that there be local government 
officials represented in these citizens' groups in terms of 
both seeking the designation, and then if the designation is 
sought, setting the goals, and also hiring, for example, the 
coordinator? Would you see that local government people--in 
your view, would local government people have to be part of 
that process?
    Ms. McGinty. It would be extremely important, and that is 
noted in the Federal Register again. I guess I would note on 
that point as well that the Conference of Mayors, for example, 
has unanimously passed a resolution in support of this 
initiative, so we have been reaching out to make sure that 
local government entities are very well aware of this program.
    Mr. Hill. One last question. One of the things that I heard 
in your testimony and in Secretary Babbitt's testimony was a 
discussion about restoring waterfronts and rivers that have 
problems.
    Those of us in the west, of course, see the resource of 
water a little differently. Because we have protected our 
water, we look upon water and these rivers, of course, as 
potential for economic development, the use of the water and 
the use of the water areas as opposed to restoring them.
    Are you going to make a commitment here that you will be 
working with those of us in the west where we want to see 
development of our water resources, that this effort will be an 
equal effort to helping us if our local communities want to 
develop those resources as opposed to just focusing on 
restoring environmental damage that has occurred in the past?
    Ms. McGinty. Absolutely, and the central focus of this 
initiative is to show the integration between economic and 
historic and cultural factors with the environment, what was 
typically thought of only as an environmental issue to show the 
interlinkages between economic and cultural-social factors with 
environmental issues.
    Mr. Hill. Certainly, I think we can all agree that the 
resource of the U.S. Government can solve problems or compound 
them, and it is my hope that if you go forward with this 
program, that it will be solving problems, not compounding 
them.
    Thank you very much, Mr. Chairman.
    Mr. Hansen. The gentleman from Nevada, Mr. Gibbons.
    Mr. Gibbons. Thank you very much, Mr. Chairman. I need some 
help in understanding some of the definitions that are in this 
proposal.
    First of all, tell me exactly who would be included or what 
is included in the river community? Is it just a section of a 
river or is it the whole river? What happens when there is a 
conflict between one party of one section of the river wanting 
this designation and someone else upstream, downstream, 
wherever it may be, not wanting this? What do you see as the 
river community? Who is going to compose that river community?
    Ms. McGinty. Certainly not the Federal Government. This 
again will not be a top-down command-and-control, one-size-
fits-all. It----
    Mr. Gibbons. I understand that. That was part of your 
testimony.
    Ms. McGinty. Yes.
    Mr. Gibbons. On the local level, who is going to be in this 
river community?
    Ms. McGinty. It will have to be a broad and diverse 
constituency of people who not only have an interest in but 
live in or are connected to or are a part of that community.
    Mr. Gibbons. Let me give you an example. For example, if I 
went to my colleague, Mr. Hill's, State and went fishing on the 
Missouri River, I am a user of that river. Am I now part of 
that river community because I use it as a recreationist or 
some other part of that river exercise? Can I then say or 
petition the government as a user of that river to have it 
included?
    Ms. McGinty. That is not at all what we have in mind. The 
thought behind this is people who find that community and call 
that community their home.
    Mr. Gibbons. So you would say residents along the river 
would have the ability to choose whether or not that river 
would be designated.
    Ms. McGinty. We would be looking for very strong and 
lasting connections to the area that----
    Mr. Gibbons. Fishing is a strong and lasting connection to 
me, so you are going to say that that is not a qualification.
    Ms. McGinty. If you came to the table with an application 
that was supported by a broad spectrum of people who have lived 
there for 100 years or who have lived there or are going to 
call this their home for 100 years, that would make a 
difference.
    Mr. Gibbons. So a special interest can't just waltz into 
your community without local support and get it designated.
    Ms. McGinty. Right.
    Mr. Gibbons. Right. How many river communities along a 
stretch of river do you envision?
    Ms. McGinty. Again, that will depend on how many 
communities are interested in pursuing an application.
    Mr. Gibbons. Now, if we had the Missouri River, and say we 
had ten river communities seeking application for designation 
as an American Heritage river, would we then have ten river 
navigators for each one of those communities?
    Ms. McGinty. Not necessarily. Each of those river 
communities would have identified to them a river navigator. 
Now, whether or not that river navigator could serve more than 
one community, I think would have to be dependent upon the 
complexity of the issues that are being faced and the demand on 
the person.
    Mr. Gibbons. Technically, you are saying there could be?
    Ms. McGinty. Could be, again, depending on the 
circumstances, but also could not be.
    Mr. Gibbons. The river navigator has the ability to 
evaluate local solutions to local problems. Does that 
evaluation include being able to change the local community's 
desires or their solutions to the environmental problems?
    Ms. McGinty. No, the river navigator will have no 
decisionmaking authority of that kind.
    Mr. Gibbons. Secretary Babbitt, you have thought about this 
American Heritage River program for about 7 months now, haven't 
you?
    Mr. Babbitt. Well, Congressman, since, I would say the 
beginning of 1995 actually.
    Mr. Gibbons. So 2 years, a little over 2 years now. Name 
for this Committee the top ten rivers that you are going to 
recommend under the American Heritage Rivers Initiative.
    Mr. Babbitt. Well, in all modesty, Congressman, I don't 
think I am going to make the recommendation. It is not my 
function.
    Mr. Gibbons. Well, you have thought about it. You have 
envisioned them, you have talked about them, and you have some 
out there. Can't you tell this Committee? Why won't you tell 
this Committee the ten you would recommend?
    Mr. Babbitt. The reason I can't tell this Committee, 
Congressman, is because that is not the idea of this program. 
The idea of the program is to say to communities around the 
United States, if you are interested in this program and if you 
have all of the stakeholders in your community interested, make 
your case.
    Mr. Gibbons. Well, there are some rivers----
    Mr. Babbitt. Don't you see that----
    Mr. Gibbons. I see your position, but I say there are some 
rivers that deserve a higher priority. The Hudson might have a 
higher priority than the Boise River in Idaho.
    Mr. Babbitt. But in my testimony, the point that I made 
repeatedly was, what this is really about is about responding 
to local needs expressed compellingly by local people. That is 
from where it has got to come.
    I could point you to a lot of really interesting river 
restoration issues. For example, in the west, if you were to go 
up to Henry's Fork in Idaho, you would see a really remarkable 
group of people working together there. They are all over the 
landscape. They are in every state, and it is a powerful, 
grassroots movement which I think involves the very best of the 
American tradition.
    The irony is that we have a Republican bench here voicing 
skepticism and outright opposition to a concept which you 
should be embracing because of its obvious and powerful 
orientation to empowering local communities.
    Mr. Hansen. The time for the gentleman from Nevada has 
expired. As we are a little heavy on the Republican side, I am 
going to take one more Republican, and then we will go back and 
forth, if that is all right with everybody. That is what we 
have done in the past.
    Staff tells me that we have two folks here that are good 
for information we may want. Mr. Robert H. Wayland, Director of 
the Office of Wetlands, Oceans, and Watersheds, Office of Water 
of the U.S. Environmental Protection Agency. We have two 
additional chairs on either end. Maybe we could put these folks 
up, and Mr. John Zirschky, Acting Assistant Secretary of Civil 
Works, Department of the Army in Washington, DC. Maybe we could 
ask those two folks to come up for questions.
    We will go to Mr. Crapo for 5 minutes, and then the 
gentlelady from the Virgin Islands for 5 minutes.
    Mr. Crapo, you are recognized for 5 minutes.
    Mr. Crapo. Thank you, Mr. Chairman, and Mr. Babbitt, I 
would just say you are correct about the significant progress 
we have been making on the Henry's Fork in Idaho.
    The concerns that we have are that we have been able to do 
that without this initiative, and we are concerned frankly that 
perhaps this initiative would put the Federal Government in 
charge of the very process that has helped us make such good 
progress. We want to make sure that it works right and is 
facilitated properly.
    That is the reason for a lot of these questions. Ms. 
McGinty, I think I will focus my questions on you to speak, 
because I believe you have the expertise and understanding of 
the development of this, and most of my questions are going to 
be somewhat technical as to how it operates.
    The first question is, who is in the American Heritage 
Rivers Federal interagency team? Who is that?
    Ms. McGinty. Well, it would include representatives of the 
12 or 13 different agencies who are coming together to be part 
of this initiative. If you would like, I could read those off.
    Mr. Crapo. No, I just wanted to understand it. The way I 
read the documents, it sounded like it was Federal officials.
    Ms. McGinty. I am sorry, Federal?
    Mr. Crapo. It sounded like it was a group of Federal 
officials representing the agencies.
    Ms. McGinty. Exactly right. That is what the interagency 
team is. Yes.
    Mr. Crapo. I know that there have already been questions 
here about the river community, but bottom line, after you look 
at all the qualifications and who might qualify to be in it and 
so forth, who picks the river community?
    Ms. McGinty. There will be a process through which the 
applications again, which come from the communities themselves, 
will be reviewed by at least the interagency team, but this is 
a question, a specific question that we have posed for public 
comment, what is the best process we might put together for the 
final selection of which rivers should be part of the program.
    Mr. Crapo. I will give you my public comment on that right 
now, and it gets back to the Henry's Fork that has been working 
out in Idaho, and that is, if you have a Federal team picking 
who the community representatives will be, that doesn't quite 
to me sound like the community-based decisionmaking that will 
work.
    Ms. McGinty. Let me be clear, Congressman, I am sorry. At 
the end of the day, the selection process will not select the 
local community or the local plan or who at the local level 
participates. The only question is, when we receive, which has 
been commented on before, what I think will be many, many more 
applications than the ten rivers we imagined, how do we pick 
our way through all of those applications to select the ten 
that we can focus on, and that is a question that we have posed 
for public comment, who would be the best panel or body of 
people to help us make that decision.
    Mr. Crapo. I think the question I am trying to get at then 
is whatever the title is or the name is, we are talking here 
about community-based decisionmaking.
    Ms. McGinty. Yes.
    Mr. Crapo. I want to be sure that the people who live in 
the community are the ones who choose who is in their 
community. Is that going to happen under this initiative?
    Ms. McGinty. Yes, that would absolutely be the case.
    Mr. Crapo. So we are not going to have a Federal team or a 
Federal official who says yes, this person is in the community, 
this person is not.
    Ms. McGinty. No, we will not define the community, 
referring back to the earlier questions.
    Mr. Crapo. Then I assume that to participate with the 
Federal Government in this initiative, some river community has 
to become qualified to be a river community. Who decides what 
river community is qualified to be the river community?
    Ms. McGinty. What we are looking for is a broad spectrum of 
people.
    Mr. Crapo. But you are looking. That is my point is not 
what you are looking for, but who makes that final decision?
    The reason I ask is because we are having a dispute in 
Idaho right now on another watershed where two groups are 
competing as to which one is the community that gets to be 
involved in the collaborative decisionmaking process.
    I want to know, when that happens, do you or does a Federal 
official decide under this initiative who is the river 
community?
    Ms. McGinty. That may be a very good example of the broad 
support that will be looked for as these applications come 
forward. If it is the case that there is this significant 
disagreement in the community, that would be an application, I 
would think, that would have a very high hurdle to overcome.
    Mr. Crapo. But the bottom line is, it would be decided here 
in Washington.
    Ms. McGinty. It would probably be fatal to it. What is 
decided here in Washington is only among the applications that 
we no doubt will receive, which ones can we focus on first, but 
the details of who is a member of the community, what does the 
community envision as its future, what tools, what assistance 
from the Federal Government does the community want and does 
the community not want, that will be purely and wholly in the 
province of local citizens.
    Mr. Crapo. One last question, and I really should have 
spent my whole 5 minutes on this one, and that is, it seems to 
me that if we are going to try to facilitate--you and I have 
had many communications about the problems of managing the 
Columbia River system, and it has all of the problems, I think, 
that any river system could present.
    Is this new decisionmaking body or this new effort going to 
actually have authority to make decisions like Endangered 
Species Act decisions, or will that still be decided in the 
current system that we have under Federal law?
    Ms. McGinty. All according to the current system. There is 
no new authorities that are presented from this program.
    Mr. Crapo. My time is up. I would like to explore with you 
why it would help to add another Federal regime on top of the 
current system and not change the current system, but I guess I 
will have to do that at another time. Maybe I can meet with you 
and we can discuss that.
    Ms. McGinty. I would be happy to.
    Mr. Crapo. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. The gentlelady from the Virgin 
Islands.
    Ms. Green. Thank you, Mr. Chairman. Thank you for your 
testimony and I do share your enthusiasm for this initiative. I 
have three questions.
    Ms. McGinty, you said that there were about 31,000 hits on 
the American Heritage web page. About how many of them were 
opposed to the initiative?
    Ms. McGinty. I would have to respond in terms of exact 
numbers, but we have received overwhelming statements of 
support on this initiative. I mentioned the Conference of 
Mayors unanimously voting in favor, and in fact, that 
resolution was introduced by a western mayor, Wellington Webb, 
from Denver, Colorado.
    We have just received significant amounts of positive 
interest and support for the program.
    Ms. Green. Thank you. Going back to the question that I 
raised in my opening statement, I am not sure who would be best 
to answer this, but is there any requirement that might 
preclude Salt River from being designated if we chose to apply? 
Maybe Secretary Babbitt.
    Ms. McGinty. Is there anything that I would be aware of now 
that would preclude the application?
    Ms. Green. Yes.
    Ms. McGinty. I would be aware of nothing, but I enjoyed 
very much your recitation of the history of that river.
    Ms. Green. Finally, I am at a loss, and maybe you can help 
me to understand why and where does the objection to this 
initiative come from, because it recognizes and it supports the 
bond and the romance that people have always had with their 
rivers, which has been memorialized by many of our great poets.
    It protects the resource, it is locally driven, it cuts 
Federal red tape, it encourages broad public comment, and it 
revitalizes our towns and cities, so I don't know--I am trying 
to figure out where the objections come from.
    Ms. McGinty. Well, we have been a bit surprised ourselves. 
We have extended the public comment period to make sure that 
anyone who has a view gets a chance to comment, but as I 
reflected in my testimony, there have been some who have been 
afraid, for example, that the United Nations is somehow 
involved in this program which we have been trying very clearly 
to dispel any notion that that is the case.
    I don't know where ideas like that originate, but we 
certainly find them troubling and want to be of service to 
dispel those kinds of misapprehensions.
    Ms. Green. Thank you. No further questions.
    Mr. Hansen. Thank you. Just the order that I have coming 
in, next on the Republican side would be Smith, Chenoweth, 
Duncan, Cannon, Schaffer, Doolittle; on the Democratic side 
would be Hinchey, Abercrombie, Romero-Barcelo, Kildee, and 
Faleomavaega. If anybody wants to argue with that, switch with 
your neighbor, if that is the case, and John Peterson.
    John, I think you are just in front of John Doolittle, so I 
know this is tense information for all of you, but I will get 
to you, believe me.
    The gentlelady from Washington is recognized for 5 minutes.
    Mrs. Smith. Thank you, Mr. Chairman. It sounds like there 
is a lot of consensus, and one thing that I listened to the 
passion of Mr. Babbitt about the community efforts, and I share 
that passion. I have traveled the State and worked with any 
different groups in my region and other parts of the State.
    The community successes are so great, but there is a joke 
in the communities, and it is about a farmer, but they often 
apply it to themselves. There is a knock at the door, and the 
culmination of this joke is, we are the Federal Government and 
we are here to help you.
    It isn't really a very funny joke, because many of them 
have so many overlapping Federal interventions, and they are 
already suc-

ceeding when they can get us with our good intentions out of 
their way.
    I don't even question your passion or your good intentions, 
but you stated, as did Mr. Miller, who is now gone, all of 
these success stories that happened from individual 
initiatives, State cooperative efforts, and now, all of a 
sudden, we have decided we are going to add another person.
    I did want to clarify that to you, that it is the question 
of adding another layer. Does that really bring it together or 
does it cause more questions? Is the Columbia River Gorge up 
first? Is the environmental action up first? Is the issue of 
tributaries up first?
    We have so many different layers. Now, you say you are 
going to cooperate and help coordinate, and it only will come 
from our State, but what we found in the Columbia River Gorge 
is that those that were--by the way, the word connected scared 
the soup out of me, connected, that they hiked in the Columbia 
River Gorge. Very few of the folks that are administering that 
program really have much to do with the taking of property that 
has happened, as you can't even use your property in the 
Columbia River Gorge.
    But diverting back to my concern, it is very hard for all 
these communities that finally succeed when the Federal 
Government, no matter how well intentioned you are with another 
agency or another passion from your heart, to really believe 
that if they are already being successful, that they need your 
passion.
    With that, I am going to turn back, Mr. Babbitt, to some 
budget questions, because that is my heart. I am very concerned 
about the budget.
    I have heard you testify about increasing people for 
environmental programs, increasing budgets, and how there is 
not enough money. I also believe that comes from your heart, 
but I guess my question is, you are asking for, and I have the 
budget--are you going to ask for specific FTEs for the 
navigator position? If so, how many? Do you plan to submit a 
reprogramming request to the Congress for the use of the funds 
for an unauthorized program?
    Could you give me a preliminary on what your budget is 
going to look like in the request for this new program? Then 
would you tell me, being that you have too much money in other 
programs, which ones you are going to reduce the FTEs on in the 
other programs, because again, you have testified so eloquently 
on not having enough money and then traveled the Nation saying 
that you didn't have enough money.
    So share with me why you have too much money now that you 
can start another program.
    Mr. Babbitt. Congresswoman Smith, I appreciate your 
compliments on my eloquence.
    Mrs. Smith. I think I said passion, but eloquence is fine.
    Mr. Babbitt. Passion. Let me see if I can translate that 
into just a couple of detailed observations.
    The first one that I would like to re-emphasize to you is 
that this kind of approach is grounded indeed in what is 
already happening, and it is a very new way of looking at how 
communities can achieve their results, because decisions are 
not made by the agencies. Decisions are made by the community 
who in the process of working on river restoration inevitably 
turns to the Fish and Wild-

life Service, the Park Service, and the Environmental 
Protection Agency. There is a profound revolutionary 
distinction here, because for the first time, this 
Administration is saying to communities, you are in command. 
You go to those Federal agencies and tell them what you want. 
It seems to me that that should be enormously appealing.
    Now, what have we learned in places like the Willamette 
Valley? Let me tell you what I have learned from those 
experiences.
    When a community which has set out to restore its watershed 
begins to look around and say, we need a hydrographic data set 
from the geological survey, we would like a watershed analysis, 
a hydrologist, actually, from the Bureau of Land Management. We 
would like a grant from the Natural Resources Conservation 
Service. We would like some help from the Corps of Engineers.
    It gets pretty confusing, and what we have actually already 
found is that it is very helpful to say to those communities, 
we are going to put John Jones from the Fish and Wildlife 
Service at the other end of the telephone.
    Mrs. Smith. Mr. Babbitt, we are going to have to conclude. 
I am understanding what you are saying. I don't understand why 
it has to be done with this action as you have it now.
    My question isn't being answered. I have the spreadsheet on 
the expected FTEs needed for this new program. I understand 
your desire to coordinate, although from my experience, we are 
already doing it and very successfully so.
    Would you please tell me where you are going to show us 
that you are going to shift FTEs, that is the employees--you 
are hiring a bunch of new employees, what agencies you are 
going to shift them from, or are you going to ask for an 
appropriation? If so, would you please put that in writing, 
because, see, we are supposed to pay the bills of the country, 
and we are supposed to authorize programs, and even though you 
think this is right, we probably should debate whether or not 
this new program is started.
    If you would give us the budget numbers for that, that is 
what I am really asking for.
    Mr. Babbitt. Let me just briefly tell you what I might do 
and then refer you to Ms. McGinty.
    If push comes to shove, I think what I would probably do is 
call up the person from the Fish and Wildlife Service who is 
answering the phone in that river valley and say keep doing 
what you are doing. You are now the river navigator.
    Mrs. Smith. So you would say the people that were providing 
a service before of answering the phone now would become the 
river navigator, so we really didn't need the person answering 
the phone?
    Mr. Babbitt. Quite to the contrary. We do need the person 
answering the phone, and that is why they are answering it 
right now.
    Mrs. Smith. We are just going to rename them something else 
now, retitle them, but how could they spend all their time as a 
river navigator when we needed them so desperately for 
answering the phone before?
    I guess what we need to do is, you describe why we don't 
need the other services and why we need the new program. Again, 
please, give me in writing where you plan on reducing other 
services and adding this new one.
    Mr. Babbitt. I would be very happy to order Ms. McGinty to 
provide you those figures.
    Mrs. Smith. Thank you, Mr. Babbitt.
    Mr. Hansen. The gentlelady's time has expired. The 
gentleman from New York. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman. It seems to 
me that some of the opposition at least to this program seems 
to be fairly even-handed.
    On the one hand, some people are afraid that their 
communities will be designated and their rivers will be 
designated. Then on the other hand, they are worried that 
somebody else may be designated and thereby get the benefits 
that they won't. It is kind of an interesting situation.
    The points that you made in your testimony about the 
voluntary nature of this project are, of course, ones that need 
to be emphasized again and again, because I think it is those 
points that precisely answer some of the criticism or what 
seems to be the criticism.
    I am wondering, in the short period of time since the 
President announced the program and now, what kind of 
indications have you had of support from communities around the 
country? What kind of inquiries have you had for information? 
Even what attempts have there been to make application for the 
program up to this point?
    Ms. McGinty. We have had extensive statements of support 
for the program. I have mentioned the mayors' resolution, but 
in addition to that, mayors in different parts of the country 
are coming together themselves. In the upper Mississippi, there 
are some 20 mayors who are coming together voluntarily to say 
we think that this can be a great economic driver for us if we 
get this label and this kind of exposure on this program.
    In addition to that, we have heard from a diversity of 
interests. Local government, yes, but business concerns, 
environmental and recreation concerns, people from all 
different walks of life have been interested in this program.
    Mr. Hinchey. Have there also been expressions of fear, even 
outrage, about some of the implications that are imagined to 
flow from a project like this?
    Ms. McGinty. There have been some, and we have been 
determined to do our best to be responsive to those concerns. 
For example, just on Saturday, I traveled to Washington State 
to visit with a group called the Western States Coalition, a 
property rights group, that I know Congresswoman Chenoweth 
spoke to the night before I did.
    We are making ourselves available to every group, no matter 
what their viewpoint, to share with them every piece of 
information we have and to get their ideas on how this program 
can best be formulated.
    Mr. Hinchey. And you have addressed this on a number of 
occasions, but I want to give you an opportunity to do so 
again, and that is, with regard to concerns about the 
regulatory nature of the program, my understanding is that this 
is not a regulatory pro-

gram at all. This is a program that does not vest in anyone any 
new regulatory authority, but merely seeks to coordinate more 
effectively and more efficiently those activities that are 
being conducted by the Federal Government often in cooperation 
with State and local governments, and to bring the services 
that are deemed by virtue of present law necessary for the 
benefit of the people to flow to those constituencies more 
readily and more effectively.
    Ms McGinty. That is exactly right, and the President is--
there has been concern raised that the public isn't well enough 
aware of this program. The whole point here is to shine a 
spotlight on resources that are already out there, that the 
citizens of this country pay for, but they have little or no 
idea that they are there to be of service to them.
    We are highlighting it for specifically that reason so that 
citizens know about it and have an ability to access it.
    Mr. Hinchey. There is, I think, a great deal of concern and 
interest and support for this program, especially perhaps in 
the eastern part of the country, because as Representative 
McHale observed, it is precisely the rivers in the eastern part 
of the country that have been the most abused for a longer 
period of time.
    Secretary Babbitt makes the point that there are rivers 
also in the western part of the country and the people in that 
part of the country are equally concerned about the health and 
vitality of their rivers.
    I know that there has been a lot of attention paid, say, 
for example, to the Columbia River basin, and people there are 
concerned about it. Perhaps, Mr. Secretary, you would like to 
speak to the kinds of activities that the Federal Government 
has engaged there in the Columbia River basin and how a program 
like this might help to coordinate those activities and improve 
them.
    Mr. Babbitt. Congressman, just a couple of thoughts. I grew 
up alongside the Colorado River. That is a river which no 
longer reaches tidewater. It is not as if there hasn't been 
some development going on in the west.
    We are dealing in the California Bay delta with the San 
Joaquin River which doesn't make it to the delta.
    I do think that the restoration issues in the west are 
surprisingly similar to the issues in the east. I would say as 
a generalization that east of the Mississippi we tend to be 
dealing with industrial pollution as the No. 1 issue. West of 
the Mississippi, we tend to be worrying about water quantity 
and efficient use and how it is we balance irrigation, 
hydropower, and fish runs with maintaining instream flows or 
adequate protection of all the other values.
    Mr. Hinchey. I thank you all very much for your testimony 
and your candid answers to these questions. Mr. Chairman, thank 
you.
    Mr. Hansen. The gentleman's time has expired. The 
gentlelady from Idaho, Mrs. Chenoweth, is recognized for 5 
minutes.
    Mrs. Chenoweth. Mr. Chairman, I would like to answer Mr. 
Hinchey's question since the Secretary didn't.
    What the Federal Government is planning on doing to the 
Columbia River is bypassing dams and taking that working river 
and no longer allowing us the ability to have low cost 
hydroelectric power. You noticed the Secretary didn't want to 
answer your question.
    I do want to say that in the west, we have working rivers 
because we are a working State. We also have enough rivers in 
our roadless and wilderness areas to put four eastern States 
inside our wilderness areas, so we have rivers of all kinds.
    Mr. Hinchey. Would the gentlelady yield?
    Mrs. Chenoweth. I will yield on your time, sir.
    I do want to say that I have before me an executive order 
that was drafted, Ms. McGinty, and so whether we have the 
consent of Congress or not, I guess the President is going to 
go ahead and do this by executive order.
    It states that NEPA and FAQA give him the ability to 
combine 12 agencies and their resources and all the rules and 
regulations that empower these agencies to embark on this new 
program.
    I do not find anywhere in NEPA or FAQA the authorization 
for the President to embark on this kind of program. I would 
like for either you or Mr. Babbitt to give us a written opinion 
as to where the authority lies in these two statutes that he 
cited.
    I also want to refer, Ms. McGinty, to your statement where 
you indicated that some people are worried about this being 
brought on by the United Nations, and I do want to say that I 
have not heard anyone, anyone in this body talking about this 
project being connected with the U.N. This is not an issue 
involving the U.N. It is an issue involving States' rights and 
private property rights.
    You also indicated there was nothing about aerial 
photography----
    Ms. McGinty. Surveillance.
    Mrs. Chenoweth. Well, you are very good at wordsmithing, 
but in your Federal Register publication, you do talk about 
aerial photography. There are enough photographs of our rivers 
done by various agencies over the years that certainly the 
results of those photographs and satellite surveillances could 
certainly be used without having this in the Federal Register.
    People who have been concerned about aerial photography 
probably have a reason to be concerned if it is in the Federal 
Register.
    I do want to say that you talk about there being no new 
regulations and no new agencies, but Ms. McGinty, we are 
sitting here facing two people who sit on the President's 
Cabinet, and I imagine you sit in on it quite often.
    We are talking about three people who say there will be 
nothing new, and yet you are proposing to bring 12 agencies to 
bear on helping communities become empowered.
    With all the rules and regulations behind them to enforce 
with, we don't exactly feel sanguine about this. We don't 
believe that you are really going to empower communities, and 
while my good colleague, Congressman McHale from Pennsylvania, 
talked about President Roosevelt had to deal with the greed of 
the time when people misused our resources, yes, he did.
    But indeed, this is what is happening as I listen to this 
testimony. You are proposing to use funds that this Congress 
has allocated for certain specific purposes, and holding out 
the carrot of the dollars to certain communities, you are 
appealing to the nature of wanting more Federal dollars in 
certain communities.
    I think that would be fine if this particular White House 
were as concerned about balancing the budget, making sure that 
we can allocate the scarce resources and scarce tax dollars 
into Medicare and Social Security, and the needs of humans. 
This is almost a situation of Marie Antoinette saying if the 
peasants don't have bread, let us give them cake.
    The problem is that when we find, and I agree with Mrs. 
Smith about the fact that the Secretary, Mr. Babbitt, spoke 
very eloquently and passionately about floating from the rivers 
in the east or the midwest into the west, floating down the 
McKinsey and into the Willamette Valley, but sir, with all due 
respect and I really mean this for the office that you hold, I 
suggest you spend time on the tidal basin, truly, or in the 
Anacostia River. Truly, I do. This is the government's city, 
and this is where you can set the example. Let us clean up our 
own house first and then look to the other areas that may need 
to be cleaned up.
    We already have the clean water standards that the areas 
that you talked about have already apparently responded to to a 
degree, because they are restoring without this American 
Heritage Rivers Initiative, communities are restoring 
themselves.
    Mr. Hansen. Thank you. The time of the gentlelady has 
expired. The gentleman from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman. Mr. Babbitt, I 
can't remember your entire background. I don't believe you are 
necessarily an engineer, but one of the points was made in this 
past admonition with respect to States' rights, property 
rights, expenditures and balancing the budget.
    If I wasn't mistaken in there, I heard the phrase low cost 
hydroelectric power. If I am not mistaken, doesn't a lot of 
that low cost hydroelectric power come as a result of Federal 
expenditures to see to it that people who are the beneficiaries 
of that get it at a heck of a lot lower cost than they would 
otherwise if they were paying for it themselves exclusively, 
locally?
    Mr. Babbitt. Congressman, I think that is a fair statement.
    Mr. Abercrombie. OK. Thank you. In other words, there is a 
role for the Federal Government, isn't there, when our House 
constitutes the Nation's house, and those of us who might not 
be the immediate beneficiaries of something like low cost 
hydroelectric power nonetheless help to pay for it, because we 
all consider ourselves brothers and sisters in this Nation.
    Mrs. Chenoweth. If the gentleman will yield----
    Mr. Abercrombie. No, I cannot yield. You can speak on your 
own time, I think is the expression.
    Mrs. Chenoweth. That was----
    Mr. Abercrombie. Mr. Chairman, would you direct the member, 
please, to allow me to have my own time?
    Mr. Hansen. This is Mr. Abercrombie's time.
    Mr. Abercrombie. Now----
    Mr. Babbitt. Mr. Abercrombie----
    Mr. Abercrombie. [continuing] Mr. Babbitt, in case you were 
not able to hear all of that, is it not the case that there are 
instances in this country in which as a result of the 
utilization of our natural resources and a combination of 
Federal dollars that comes from all of us, do we not regard 
each other as brothers and sisters in a house that constitutes 
the United States of America and are quite willing to help with 
Federal dollars, tax dollars, different sections of the country 
whether we benefit immediately from it or not, because we see 
it in the Nation's interest?
    Mr. Babbitt. Congressman, I share the sentiment which you 
have expressed.
    Mr. Abercrombie. Thank you very much. Now, with regard to 
the local recommendations and the heritage rivers, let us get 
back to that. I realize it is not always an easy task to 
determine which constitutes the voice of a community or 
communities. I think Ms. McGinty responded to that. If I 
understood her point correctly, if there is contention at the 
local level or the regional level with respect to the 
suitability of a river or a river in a region being suitable, 
if there is contention about that, if there is discussion, that 
would probably make it more difficult for them ultimately then 
to be recommended, right?
    Mr. Babbitt. Congressman, I think that is correct, yes.
    Mr. Abercrombie. Now, with regard to the recommendations, 
this does constitute a competition in some respects. That is a 
fair statement also, isn't it?
    Mr. Babbitt. Sure.
    Mr. Abercrombie. Many might call, but not everyone will be 
chosen at least initially. It may take a period of time.
    Now, in that regard then, isn't the idea of the navigator 
and this is a legislative process after all--you are not fixed 
on this, right? We could perhaps modify this if there is 
commentary and testimony in that direction.
    But if the case is that we generally come up with what you 
are proposing, isn't the object of the navigator and the object 
of the program to make available to local communities services 
of the Federal Government which are already being paid for 
about which they may not be necessarily be aware? They may not 
be fully informed, right?
    Mr. Babbitt. That is correct.
    Mr. Abercrombie. Along with regulation also comes services, 
does it not, and those things are not necessarily always 
understood by everybody or immediately available to them.
    Would the duty of the navigator be to work something like 
with the base closures? I want to draw a parallel there.
    We have a base closure coordinator in my area that has been 
invaluable in terms of running interference between Federal, 
local, State agencies and groups acting in terms of good 
offices and as an honest broker.
    Would you see the navigator in that kind of a context?
    Mr. Babbitt. Someone used the phrase facilitator----
    Mr. Abercrombie. Excellent, facilitator.
    Mr. Babbitt. [continuing] which I thought was equally 
descriptive.
    Mr. Abercrombie. Maybe that is even a good job description 
for the navigator.
    Last question, and perhaps you could answer it more in 
writing to the chairman.
    I am still not fully resolved on the question of the 
reprogramming of funds. I think the chairman has, over and 
above the policy question, the chairman has a key point to 
make, it seems, with respect to the question of reprogramming.
    I am very ill at ease with the idea that there are funds 
that could be reprogrammed if it is going to come at the 
expense of that which we have already authorized and 
appropriated for.
    I will say that Mr. Hansen and Mr. Young, as well as 
hopefully with the assistance of the minority, have worked very 
hard to see to it that dollars and positions are held to 
exactly where they should be, that there is not excess in them.
    I think Mr. Hansen prides himself on that, and I think that 
we need to have more information as to whether reprogramming is 
something that would be in order as opposed to additional 
funding if we decided to go ahead.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments, and hope to followup on your last question.
    Mrs. Smith. Mr. Chairman.
    Mr. Hansen. The gentleman from Utah, Mr. Cannon, is 
recognized for 5 minutes.
    Mr. Cannon. Thank you, Mr. Chairman. It has been a long 
hearing, but there are a couple of things that I would actually 
like to focus on just for a moment.
    From the background documents that you were so kind to 
provide, Ms. McGinty, to the Committee, it is clear that you 
expect many applications for these river projects. Therefore, 
one of the tasks you have is setting up criteria for how those 
would be selected.
    One of the documents you provided refers to the selection 
process and says the selection committee will recommend more 
American Heritage Rivers than can actually be designated, 
giving someone else [the President?] a further choice. This 
could ensure that designated American Heritage Rivers, and then 
you have three starred items, or your staff developed three 
items, and those were either to serve political purposes are 
located where agencies can staff them are diverse [river, 
landscape, community, geography, et cetera].
    Now, politics of course, a political purpose is broadly 
stated. Having mayors involved, of course, is certainly 
important, but would you also see this as being a forum of 
where you would consider how the President appears to segments 
of the population as being important politically as a 
consideration?
    Ms. McGinty. Well, that is not our intention, and again, 
this effort has been from in every----
    Mr. Cannon. Pardon me. The question is, would that be a 
consideration that would be reasonable in the White House? How 
does the selection of this river as opposed to that river 
affect the President?
    Ms. McGinty. That would not be a consideration that would 
influence our view as to which river should or should not be 
designated an American Heritage river.
    Mr. Cannon. You would not consider the implications of 
Presidential politics in choosing a river?
    Ms. McGinty. These applications are being derived from the 
bottom up.
    Mr. Cannon. Right, but they are going to come and you will 
be able to choose them, and you are telling me that you 
wouldn't consider the implications of a choice of a river in 
Presidential politics, even though politics is clearly a 
consideration according to your staff.
    Ms. McGinty. We will consider whether there is a broad 
basis of support----
    Mr. Cannon. I don't want the hierarchy. I only want to 
know, will you consider the implications of a choice----
    Ms. McGinty. We have no intention of making this decision 
on the basis of politics, and I personally have spent, I think, 
more time with Republican mayors----
    Mr. Cannon. If I may, the question is not----
    Ms. McGinty. [continuing] on this very----
    Mr. Cannon. [continuing] a question of uniqueness. Are you 
telling this Committee that you will not consider Presidential 
politics in a choice of rivers when you have a choice between 
two that are very close?
    Ms. McGinty. I will answer again, I have no intention of 
considering politics in making the decision. This is a program 
that will recognize----
    Mr. Cannon. Wait a minute. I am not suggesting that 
politics is not an appropriate consideration. It clearly is, 
and that is how we live in America.
    Clearly, your staff has already considered politics an 
appropriate consideration. I am only trying to figure out 
whether you are saying what levels and what kind of 
consideration you are going to give to this.
    Are you telling this Committee that you will not consider 
Presidential politics in the process of picking one river as 
opposed to another where they may be close?
    Ms. McGinty. Our eloquent Secretary helps me with a single 
word answer. Yes, that is what I am telling you, we will not 
consider Presidential politics.
    Mr. Cannon. And yes means no, you will not?
    Ms. McGinty. Exactly right.
    Mr. Cannon. Does that mean you will also not consider 
congressional politics, how the choice of a river will affect a 
congressional candidate?
    Ms. McGinty. We will consider the views of the elected 
representatives of the people in question, but I want to----
    Mr. Cannon. Please. I have a short time, and I want to cut 
to the chase here.
    The President just a week or so ago talked about how he can 
advance the interests of his presidency by gaining control of 
this House.
    Are you telling me that you will not consider in the 
process of choosing between river designations the difference 
between the effect on congressional races?
    Ms. McGinty. Yes, I am telling you I will not.
    Mr. Cannon. Well, that absolutely strains credibility. You 
also told the Governor and the delegation of Utah that you had 
no plans, no imminent plans, to designate 1,700,000 acres in 
southern Utah, and that was clearly political and clearly 
intended to enhance the position of the President.
    Let me just close by saying that Mr. Glickman has pointed 
out that this facilitator, which I think is a better term, will 
have a tendency to be able to focus the resources that already 
exist and enlist the agencies, the Forest Service, the 
Conservation Service, the Extension Service, on these kinds of 
programs. I think that you used the term using a spotlight or 
highlighting these kinds of things.
    What you do when you do that is distort the process. You 
can't take resources unless we have overfunded you, Mr. 
Glickman, out of the system and put them into this kind of a 
program without changing the nature and usage of those 
resources. You can't spotlight without distorting.
    I was pleased as I finished my opening statement my 
colleague from Washington leaned over and said, do you have an 
opinion on this matter, Mr. Cannon? The fact is, I have 
opinions.
    I was pleased that the Secretary made his position clear 
when he said that the Congress was taking a wrecking ball to 
the environmental laws of this country. Let me say, I believe 
in process, and I believe in the rule of law, and I believe 
that if we do that, we will be fine in America, whether we are 
Democrat or Republican.
    On the other hand, the bald statement that Presidential 
politics will not be considered in this reallocation of 
resources around America I don't think is credible, and 
therefore, I think you should reconsider. Thank you.
    Mr. Glickman. May I just make one quick comment?
    Mr. Hansen. Mr. Secretary, go ahead.
    Mr. Glickman. Thank you. I think it is important to 
recognize again from USDA's role, we are out there spending a 
lot of taxpayer resources on important things, and I want to go 
back.
    We have a model--we have a couple models. One is called our 
RC&D model; it is resource, conservation, and development model 
where we help and facilitate community involvement in 
conservation projects. That has been going on for a very long 
time.
    The other model is the empowerment zone enterprise 
community model, where communities come together, come up with 
a program, use existing resources.
    If you go to these empowerment zones, enterprise 
communities, it is extraordinary what they have done themselves 
with already appropriated assets out there deciding for 
themselves how best to allocate them, and using our help, to 
facilitate working through bureaucratic roadblocks, and it 
works very well.
    That is basically what we are talking about here.
    Mr. Cannon. May I respond to that, Mr. Chairman?
    Mr. Hansen. Yes.
    Mr. Cannon. The Secretary has said he cannot understand why 
conservatives and Republicans are opposed to this kind of grass 
roots activity.
    We are not. We believe in grassroots activity. I think that 
Mr. Crapo went to great lengths to describe how a project like 
this on the grass roots is working in Idaho.
    What we are concerned about is the distortion of the 
political system through diverting resources one way or another 
for facilitators or choosing parts of the Nation as opposed to 
other parts in a very broad program that has virtually no 
controls.
    That is the problem. We believe in grass roots, and we also 
believe that if programs are so bureaucratic they need a 
facilitator or a navigator to get through them, that maybe 
those programs ought to be eliminated and give the money back 
to people at the grassroots level so they can choose how they 
wish to use those resources.
    Mr. Hansen. Thank you. I will yield in 1 minute, Chris.
    This has been an interesting debate, and probably a very 
intriguing and interesting idea, but we don't know the details, 
and frankly, I think it comes down to process.
    I am not sure how the process works, and you will have to 
excuse us for being just a little suspicious, but some of us, 
when you talk about all of the people that you have talked to, 
we didn't see that happen.
    As Mr. Cannon brought up about the monument, we were 
specifically excluded, especially when we are starting to 
subpoena the records on this and find out that it was done 
strictly for political reasons, and we find out that we 
extinguish protection, and we have 1,700,000 acres of rolling 
sagebrush surrounded by beautiful parks. It makes a lot of us 
wonder.
    I honestly think when you just said a minute ago, Kathleen 
McGinty, that you would consider the views of the 
representative, a few months ago, we were not only not 
considered, we were specifically excluded. Therefore, possibly 
you can't blame us for being a wee bit suspicious.
    We would hope that we see a little more openness from the 
Administration this time. I don't think we intend to dismiss 
this proposal out of hand, but we would like to put out the 
hand of fellowship and work with you, if we could. If we can't, 
then we will go to the mat as we have done in the past, and you 
know, we have our tricks in the bag just like you folks do, 
too, and please don't take it personally. I have great respect 
for all three of you, but I would hope that we could work 
together and we can work something out. If we can't, of course, 
we will try to put moratoriums and we will try to block you 
with money and we will try to block you with legislation, but 
please, I would hope that we could somehow remove the 
suspicion, but right now, I don't think there is a good feeling 
toward some of our members as has been illustrated today 
predicated on past performance.
    I have used my entire minute almost, and thank you for 
listening to me.
    The gentleman from American Samoa. Now, do you think Mr. 
Kildee is next or do you want to argue about this?
    Mr. Faleomavaega. I am not going to argue, Mr. Chairman.
    Mr. Hansen. I will recognize you for 5 minutes.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. The ranking member of the Subcommittee of Lands 
and National Parks.
    Mr. Faleomavaega. Thank you, Mr. Chairman. It is not very 
often that this Committee has the privilege of having the 
presence of two distinguished members of the President's 
cabinet, Secretary Babbitt, and certainly, our former 
colleague, Secretary Glickman. I am very, very happy to have 
them both here with us this morning, and certainly, Ms. McGinty 
also, representing the Council on Environmental Quality.
    Mr. Chairman, I think it was about a month ago that I saw a 
full-page article, believe it or not, in the Denver Post 
outlining the recent development or establishment of a 9,000 
acre national park in my district. I want to personally commend 
Secretary Babbitt for taking the time to go to American Samoa 
to dedicate this national park. His presence at this event 
meant a lot to the Samoan people.
    This national park includes a very rare rainforest in our 
nation. It has about 55 species of rare birds. It also contains 
over 200 plants of medicinal value that are now being studied 
at the National Institute of Health for cancer research.
    Secretary Babbitt, I can't thank you enough for coming to 
our little island territory. The coral formations that we have 
in this island territory are among the rarest in the world. 
These coral formations are about as big as this chamber, this 
room. I want you to know that on behalf of the people of 
American Samoa, we are very appreciative of your work and your 
being with us.
    I need clarification Ms. McGinty, based on information 
provided by you, Secretary Glickman, and Secretary Babbitt, 
would you say that as far as the Administration is concerned, 
the Administration has not exceeded its authority in any 
statutory sense, and that you are acting strictly within the 
confines of current law. Am I correct on that?
    Ms. McGinty. Absolutely, and we feel not only do we have 
the authority but the absolute responsibility and obligation to 
manage the programs that this Congress has directed us to 
manage in the most efficient, effective, and responsible way 
possible.
    Mr. Faleomavaega. Maybe I wasn't very clear. We keep 
throwing around ten rivers, and I am sure of the fact that we 
have hundreds of rivers in our Nation.
    Can you explain a little more specifically. You have not 
selected the ten rivers. You are in the process of receiving 
applications from all sectors of our country. Is ten the magic 
number or is this just the beginning, at least for you to 
consider seriously, in terms of the President's initiative on 
this?
    Ms. McGinty. It is just the beginning to see if it works 
and to take some steps forward and see how that all plays out.
    We have not yet begun to receive applications because we 
have been going the extra mile to make sure citizens are 
involved in the design of the program, even down to the 
application form and what it should look like. We are receiving 
extensive comment on that, and so we won't actually even begin 
to receive applications until sometime in September.
    Mr. Faleomavaega. Maybe this is probably the bottom line of 
the concern, not only, I am sure, for our colleagues on the 
other side of the aisle, but on this side as well: cost factor 
potentials.
    You are talking about the idea, and I am sure that most 
Americans support the idea that we need to clean up our rivers. 
We are talking about rivers that are connected to chemical 
plants, rivers that are connected to nuclear power plants, 
sawmills, the kind of situation where, obviously, environmental 
issues are very, very se-

rious, and I am making a similar analogy to the fact that we 
need to also clean up America's nuclear waste.
    You are talking about a program that could potentially cost 
hundreds of billions of dollars. I want to ask our friends, has 
there been any cost estimate taken by the Administration on the 
potential cost, not just for cleaning up ten rivers, but for 
other rivers that are just as important. Rivers, not just to 
the eastern side of our country, but all over the country? Do 
you see this as a foreseeable problem?
    I see that we are kicking around $2,000,000, but I am sure 
that this is just the tip of the iceberg. Are you looking 
seriously at the cost of this program to the American taxpayer?
    Ms. McGinty. Not through this program and that is--I 
appreciate the question because it enables us, I think, to 
address the question that has been asked about reprogramming 
and new programs.
    This is only about the better execution of current 
programs. We don't envision new funds of any kind or new 
programs or new initiatives of any kind. This is just 
reinventing the delivery service of current programs.
    Mr. Faleomavaega. So basically, somewhere down the line, 
the Administration, if it feels that there will be a necessity 
for asking for funds, then it will at that appropriate time 
come and ask the Congress for further legislation that will not 
only enhance the initiative but clarify even more the cost 
factors?
    Ms. McGinty. Yes, but again this initiative only seeks to 
coordinate current authorities and appropriations. There is no 
intention to buildup a new initiative or a wholly new program 
here and seek new moneys. There is no intention to do that at 
all.
    Mr. Faleomavaega. Thank you. Thank you, Mr. Chairman.
    Mr. Hansen. The gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Mr. Chairman. Ms. McGinty, you 
mentioned, and I am quoting that this is a historic opportunity 
to coordinate--I guess this is where the quote ends, a historic 
opportunity to coordinate the services and efforts of several 
agencies and so on.
    I would like to ask you what makes it impossible for this 
kind of coordination to occur today?
    Ms. McGinty. It does occur today, and in every instance, it 
is a different set of agencies that necessarily need to be 
brought together, et cetera, but what we have found is that 
there are communities across the country specifically trying to 
organize themselves around rivers and specifically asking in 
that instance, we would like to help more easily access the 
Federal resources that we pay for.
    Mr. Schaffer. But what is preventing that to occur to make 
it more easily accessible today?
    Ms. McGinty. Well, this is evidence that it is happening 
and we are furthering it along. That is the purpose of----
    Mr. Schaffer. When you mentioned the word historic, what 
was it you were referring to?
    Ms. McGinty. I could refer back, I guess, to the actual 
quote. I said this is a historic opportunity to support efforts 
of our communities to revitalize their riverfronts.
    Mr. Schaffer. Secretary Babbitt, as I recall, you were 
present when the President was in Nevada and signed the 
executive order on the Grand Staircase-Escalante National 
Monument.
    Mr. Babbitt. Yes, in Arizona.
    Mr. Schaffer. Arizona, I am sorry, I thought it was Nevada.
    Since that time, the entire Utah delegation has gone on 
record as opposing that particular measure. The Utah State 
legislature has, the Governor has. Virtually every elected 
official representing that State has gone on record in an 
official capacity opposing it.
    My question to you is, are you supporting or promoting any 
effort to repeal that designation in Utah?
    Mr. Babbitt. Absolutely not. I support the President's 
action.
    Mr. Schaffer. Let me move up to Idaho for a moment. The 
grizzly bear reintroduction in that area is opposed by the 
Governor, opposed by the Idaho legislature, opposed by the 
Idaho delegation. Are you supporting any effort to repeal the 
grizzly bear reintroduction in Idaho?
    Mr. Babbitt. I am supporting, Congressman, an ongoing 
effort, I think of considerable promise, to structure a local 
advisory committee for the first time under the Endangered 
Species Act which is going to pioneer an entirely new way of 
working these reintroduction issues. Now----
    Mr. Schaffer. I don't want to spend too much time as far as 
the details of the program. I am just asking whether there is 
any effort that you are supporting to repeal the initiative.
    Mr. Babbitt. Absolutely not.
    Mr. Schaffer. This is for Secretary Glickman, I suppose. 
The biosphere program was one that was defended and explained 
in front of the Resources Committee recently, and one of the 
executives and directors in your agency was confronted with the 
question of the Kentucky State legislature has in fact opposed 
that initiative, and I am curious as to whether you or your 
department is supporting the repeal of the biosphere 
initiatives in Kentucky.
    Mr. Glickman. I do not believe we have been actively 
involved in that issue. I will check on that for you. Not in 
Kentucky.
    Mr. Schaffer. Let me ask Ms. McGinty a related question. 
Let us suppose that a city within a State secures the American 
Heritage designation under this Act, and then a State 
legislature through a resolution or the Governor or the 
delegation from that State requests that the designation be 
repealed. Will that program be repealed, that designation be 
repealed?
    Ms. McGinty. Well, we certainly would take that extremely 
seriously, and I would think that that could prove fatal to the 
initiative, yes.
    Mr. Schaffer. Do you understand how many of us from western 
States may not take great comfort from that assurance here 
today, given the explanations you just heard on other programs 
that have been initiated in other States where the official 
opinion stated by elected officials, Governors, State 
delegations, has gone ignored?
    Ms. McGinty. I respect your views, certainly, but the whole 
point here is to be responsive actually to other principles 
this Congress has laid out in terms of locally----
    Mr. Schaffer. I am trying to beat this light here. On May 
19, you submitted to the Federal Register the details of the 
plan and gave 21 days for public comment.
    Now, the Administrative Procedures Act suggests 60 to 90 
days. Why was 21 days suggested and why May 19?
    Ms. McGinty. That was on the heels of an intensive 4-month 
process that involved public meetings in every region of the 
country with hundreds of people participating; 31,000 people 
accessing and using the home page that was set up for this; a 
hotline set up.
    It was at the heels of a much longer public process, and 
again, it has been extended.
    Mr. Schaffer. Let me ask, there are many of us who are 
concerned about private property. In fact, in Colorado and many 
western States, water rights are allocated as a property right 
within our State constitutions.
    Let me ask, if the program is truly voluntary as you say 
and nonregulatory, would the Administration be willing to write 
into the program a mandatory and explicit opt-in provision 
whereby private landowners along a designated heritage river or 
holders of water rights on a river in question could only be 
included if they gave their written permission to be included?
    Ms. McGinty. Well, we are in the middle of receiving broad 
public comment, and that is something we certainly will 
consider and give top priority to as well.
    Mr. Schaffer. Do you have any plans to include that at the 
moment?
    Ms. McGinty. I just don't want to prejudge the ability of 
the public to comment at this point. I think it would be 
inappropriate to prejudge the conclusion of a public comment 
process.
    Mr. Schaffer. My time has run out apparently, Mr. Chairman.
    Mr. Hansen. Thank you. The gentleman from Michigan, Mr. 
Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Mr. Secretary, both 
Mr. Secretaries and the rest of the panel, coming from a Great 
Lakes State, Michigan, where Dan, you studied, I understand 
better than many the importance of rivers, lakes, and streams 
to our society.
    In 1992, I wrote the law that protected 1,000 miles of 
rivers throughout the State of Michigan under a different Act, 
the Wild and Scenic Rivers Act, and at that time, my bill was 
really opposed by a great number of people. I can recall going 
to hearings in the Upper Peninsula. There were signs out, 
``kill the Kildee bill,'' but what has happened since then is 
that my legislation is being lauded by local governments. I get 
thanks for what I did back then. Local citizens are lauding it. 
I think sometimes there is a certain period of the unknown, and 
I think that is why we have hearings like this.
    Really, in 1992, I was kind of a bum up there, and now, I 
am kind of a hero for helping to help preserve those rivers 
which do refresh and refurbish the Great Lakes every day as 
they pour into them.
    I have been very interested in this bill. I know that Mayor 
Dennis Archer, who you know very well from the city of Detroit, 
is thinking of having Detroit apply for one of the rivers to be 
des-

ignated as such. There would really be an example of the mixed 
use which I know you are concerned about.
    In some areas, rivers such as the Saba River should be used 
for only certain things, not for the commercial ships that come 
in from Germany or Sweden as we see on the Detroit River. In 
the Detroit River, you can see a Swedish ship coming down, and 
a German ship coming down through the Great Lakes and the St. 
Lawrence Seaway. You can find recreational use on that river, 
you can find fishing on the river, even speedboat racing on the 
river, but multiple use, and the city of Detroit is interested 
in using and upgrading that great waterway, the Detroit River, 
which is the boundary between the United States and Canada at 
that point. To really upgrade its economy with mixed uses. 
These mixed uses certainly would fit well into the Heritage 
bill, would they not?
    Ms. McGinty. In fact, the mayor has spoken to me about his 
interest in this, and in his mind, just to pick up what 
Secretary Glickman has said, with the wonderful experience that 
Detroit has had with the empowerment zone, General Motors 
coming back into Renaissance Center, the Ren Cen, he sees this 
as a very logical extension of that progress.
    Mr. Kildee. Exactly right. The new General Motors building 
is right in that renaissance zone. I just drove by it yesterday 
as I was coming back from Michigan, and although it is not part 
of my district, some wonderful things are happening in the 
enterprise zone down there.
    This would be a great addition to Detroit. I would 
certainly hope that it would be a river that would be 
considered, but I think that those who think that this going to 
take a river and negate something in the economy are wrong. The 
mayor of Detroit recognized this as something that would be 
very positive to the economy, this multiple, mixed use, which 
that river certainly lends itself to. I certainly would hope 
that he does apply, and that consideration will be given to 
Detroit, because Detroit is making an enormous comeback, and 
that would be a great thing.
    Let me ask a question of Mr. Wayland from the EPA. Can you 
cite an example of watershed projects that have achieved 
environmental results and enjoyed broad community support, such 
as industry, local government, farmers, ranchers? Can you give 
us some examples of some watershed projects that have that 
support?
     Mr. Wayland. I would be delighted, Congressman, and there 
are so many to choose from that it is difficult to know where 
to go, Secretary Babbitt earlier spoke about Henry's Fork, 
which meets all the criteria you specified.
    I think we are very proud of our involvement in the Clear 
Creek watershed above Denver. It is a municipal water supply 
source for the city of Denver affected by many abandoned hard 
rock mining operations. It had lost its ability to support 
aquatic life. It is a recreational river which presented some 
hazard to those who were looking to shoot its rapids.
    The local governments, the State of Colorado, EPA, other 
Federal agencies, Coors Brewing Company, many private sector 
interests have been working for over 3 years collaboratively to 
identify an action plan to undertake the cleanup and protection 
of that river.
    It is a very inspiring story and one that we are very 
pleased to be associated with. We have a facilitator. She is a 
Superfund remedial project officer. Holly Flinio is the EPA 
person who works with that community and our resources have 
helped to fund a local facilitator, Carl Norbeck, who is on the 
ground. I visited this watershed many times, and I have seen 
tremendous progress as we look at people pulling together, and 
they have enlarged their circle of interest as they have seen 
progress build in steady and slow stages from addressing the 
most serious problems of ecological contamination to other 
opportunities that they have a shared vision for.
    Mr. Kildee. Thank you. Before I finish, I would like to 
commend Secretary Babbitt for not only your interest in the 
environment, but I will take this time to commend you for your 
interest in the rights of Native Americans, including your 
latest statement on the Interior appropriations bill. Thank 
you, Mr. Secretary.
    Mr. Hansen. The gentleman from Pennsylvania, Mr. Peterson.
    Mr. Peterson. Thank you very much for coming before us. I 
consider it a real pleasure as a freshman Member of Congress to 
have a chance to visit with two Cabinet people and a top 
advisor to the President simultaneously, but time will not 
allow me to ask you the questions I would like to.
    I would like to share a couple thoughts with you first. As 
a freshman Member of Congress, I guess I am a little surprised 
at your sensitivity to being questioned so hard about this 
program, and showing some annoyance that, ``How dare they 
question this grassroots program?''
    I come from rural northwestern Pennsylvania, the largest 
rural district east of the Mississippi. It is mostly timber and 
mostly rural. Three beautiful rivers of Pennsylvania flow 
through my district; so I represent rural America at its best.
    When I look at what has happened in rural Pennsylvania and 
in the rural west, I would like to share with you, and all of 
you are veterans of public policy. You have been around the 
mill. I guess that was why I was surprised at your sensitivity 
to being questioned so severely, because we live by perception.
    The perception in rural America, and I don't mean this in 
any personal way, because you are nice people, but people fear 
Katie McGinty in rural America. People fear Mr. Babbitt. 
Because of the first 4 years of this Administration, rural 
America is struggling, and I think the issue that bothers me is 
the bigger issue. The rural economy is far more fragile.
    We just heard from Mr. Kildee that Detroit loves these 
ideas and they are ready to embrace them, but that is a city 
and urban area.
    The rural economy is so narrow, when you lose a portion of 
it, you don't recover the same as an urban-suburban area does. 
Rural America is struggling and kind of hanging on by its 
fingernails in many parts of this country and in parts of my 
district, and that is why there is sensitivety from rural 
legislators that I think you need to think seriously about.
    We are struggling. The worst policy is a policy that takes 
away a person's job and the right to earn a living and feed 
their family. When economies go down, the question of the 
national monument had big impacts. Your enforcement of the 
Endangered Species Act, some of your property rights policies 
or insensitivities there, timber issues, recreational policies. 
All of those, whether we have hydro power in the future or not, 
those are all questions that are fearful in the hearts of rural 
people.
    I guess I would like to share with you why there are a lot 
of questions from rural legislators; people in rural America 
who are scared of their economic future. What you have to deal 
with, whether this is the most perfect program in the world, is 
history, and history has been that you have not been as 
sensitive to how things have impacted the rural economy as you 
should have been. At least that is how people in the fifth 
district feel.
    Mr. Glickman. May I comment, if possible? Mr. Peterson, I 
understand it. I live with it. I am Secretary of the rural 
department. I view myself as an advocate for people who live in 
underserved areas that often don't benefit by population and by 
industrial development and who often lose access because of 
banks closing or highways not as good or air service is not 
there or electric rates are higher.
    This is a big part of what I do, and we spend billions of 
dollars a year on water systems, sewer systems, rural 
development projects generally.
    I guess what I am saying is that rural America needs a 
spark to expand, to develop, to create this economic growth 
that we have often seen in areas of urban America, and we have 
to look at different options rather than just all of the 
traditional options.
    One of the great things we have is our advocates up here on 
Capitol Hill for rural America. It has made a massive 
difference, but I go back to this idea.
    I went down to the Rio Grande Valley in south Texas, one of 
the poorest areas of the country, heavily rural, heavily fresh 
fruit and vegetable, in bad shape economically, one of the 
highest unemployment rates in the United States. They sat down 
and they said we got to jump-start rural America. We are going 
to die unless we do something different, so they became an 
empowerment zone.
    This is this concept where they got together 
collaboratively and they decided what they needed to do to 
marshall their resources. Through that, they had been able to 
do a lot of things on economic development and new jobs, 
enhancing their educational opportunities, and in fact, 
attracting industry from urban America as well.
    I want you to know that from my perspective, and I think 
Secretary Babbitt and Katie McGinty agree, we view this as a 
way to facilitate rural America, not hurt it, but help it.
    Mr. Peterson. I guess I could comment that the Agriculture 
Department was not included in that fear, and this isn't 
personal, but I am serious about the Department of the Interior 
and some of your policies.
    Rural America is frightened by them, because in the big 
picture, they don't feel that you feel their pain and the 
fragility of the rural economy.
    Rural America is hurting, and I think that is why you have 
problems with this proposal, although it may be perfect, is 
history. They don't think you have been sensitive enough to how 
these proposals in the last 4 years have affected people, not 
the Agriculture Department, but the Department of the Interior.
    Do you have any comment to that, Mr. Babbitt?
    Mr. Babbitt. Congressman, I appreciate the intensity of 
your concern and your remarks. I indeed believe that there is a 
substantial amount of real fact and perception out there that 
needs to be dealt with, and I guess what I would say is that I 
think the way to do that is to try to step away from the broad 
generalizations and move toward specifics out on the landscape. 
I would only say to you without prolonging this unnecessarily 
that we have tried very hard to be site-specific, to get down 
on the ground, to engage and to kind of step away from a 
rhetorical debate which I think simply isolates us all from 
each other. I appreciate very much the context and the insights 
that you offer. I think they are fair, and I think it is our 
obligation to be responsive.
    Mr. Peterson. Ms. McGinty, do you have anything to say?
    Ms. McGinty. Just a second, to recognize and just to offer 
at any time that we can be personally and immediately available 
to constituents of yours who have concerns. That is our 
obligation and responsibility, and we will do it immediately.
    Mr. Peterson. In conclusion, I would just like to say that 
I think sometimes what is looked at, we get into a political 
debate and we shouldn't because rural America is rural America. 
Whether it is Republican or Democrat doesn't really matter, but 
rural America is in trouble economically.
    I don't think that many people will argue with that, and I 
think we need to look in the multitude of programs and changes 
that are happening simultaneously. A number of them have 
impacted rural America, and not positively, and that is the 
concern we have, and I will be critical of Congress.
    I don't think this Congress is as sensitive as I would like 
it to be to rural issues. I think as I am here a while, people 
will realize that I will be outspoken about rural. I was in 
Pennsylvania State government and I will be here, because it is 
where I come from and it is who I represent.
    Mr. Hansen. Thank you. Do any of the members have any 
further questions for this panel?
    We will go back over to this side. The gentleman is 
recognized for 5 minutes.
    Mr. Faleomavaega. I have no further questions, and I 
certainly would like to associate myself with the gentleman 
from Michigan's earlier statement in thanking Secretary Babbitt 
for his sensitivity and support of Native American issues, 
which is part of this Committee's jurisdiction.
    We have a saying where I come from when the chiefs meet in 
council. After sitting cross-legged for four or more hours, one 
of the chiefs will complain that the mat is hot, and so I think 
with that statement, Mr. Chairman, I want to thank our two 
distinguished members of the President's Cabinet, Ms. McGinty, 
our friends from EPA and the Department of the Army for being 
here. The mat is hot, and I think it is time to go home.
    Mr. Hansen. Thank you. I recognize the gentlelady from 
Idaho for 5 minutes.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I want to followup 
on the President's executive order where he cites NEPA and I 
will direct this question to Mr. Babbitt.
    Since the President has cited NEPA as the tool for his 
authority to engage in this program, has the White House 
planned or have they completed an environmental impact 
statement which definitely is clearly required in NEPA for any 
major Federal action as has been interpreted by numerous 
Supreme Court decisions?
    Mr. Babbitt. Congresswoman, it is not--I am a recovering 
lawyer. I am now in a different line of work, but it is not at 
all clear to me that this is the kind of situation where an 
environmental impact statement is desirable or required, but I 
obviously defer to the lawyers. The reason, I think, is it is 
really important to see this as an enhancement of a whole 
series of ongoing issues.
    I told Congresswoman Smith, for example, that out in 
Oregon, I could effectively turn to Katie McGinty and say, 
there is already a facilitator out there; we will give them a 
new title.
    This isn't so much a new program as it is the President of 
the United States exercising his power to say to 13 Federal 
agencies, I see some good things out there, and I would like to 
put the weight of my office on behalf of all Americans behind 
what you are doing, and I would like to showcase successful 
efforts. I would like to admonish agencies to learn from those 
efforts, to step up their efforts, and to be certain that they 
are facilitating.
    Mrs. Chenoweth. I would be interested in another legal 
analysis based on whether this constitutes a major Federal 
action as defined.
    Mr. Babbitt. I will happily direct Ms. McGinty to respond 
to that.
    Mrs. Chenoweth. And your budget, right? And whether this 
constitutes a major Federal action, and based on previous 
Supreme Court decisions with regard to that triggering the need 
for an environmental impact statement.
    Ms. McGinty. Would you like that comment now? This program 
derives from the National Environmental Policy Act, and in 
fact, it is an example of what the National Environmental 
Policy Act requires.
    Every agency in every policy, every program, every action 
they undertake is directed by the National Environmental Policy 
Act to achieve an integration and coherence among 
environmental, economic, and social considerations.
    That has not been, as some of your constituents, I think, 
would probably tell you, very effectively exercised in the 
past. Yes, we have had some environmental decisionmaking. Has 
it effectively incorporated economic and social considerations? 
Not always.
    This program is about saying you have got to achieve that 
integration that NEPA directs you to achieve.
    Mrs. Chenoweth. I think that there is a term that I have 
heard the Secretary use. It is called cumulative impact, and 
this coming together of 12 or 13 different agencies for a new 
single purpose, I believe, would constitute a major Federal 
action, and that is my concern. That is how I am framing the 
question.
    I do understand your answer, but I have a concern along 
this line.
    I have a couple of questions I would like to ask you also, 
if you don't mind. On April 16, 1997, a memo from CEQ about 
this pro-

gram lists the AmeriCorps as one Federal agency that was 
helping draft the Heritage Rivers budget proposal.
    AmeriCorps is largely an agency that deals with social 
issues, such as poverty and education. Does this indicate that 
the rivers program will go beyond the environment and engage in 
social action issues like poverty and hunger?
    Ms. McGinty. Precisely. Integrating social, historical, 
cultural, and economic opportunities into environmental issues 
to achieve that integration, yes.
    Mrs. Chenoweth. And what organizations representing private 
property owners, if any, did the Administration consult with 
before the President announced this program?
    Ms. McGinty. Well, we have consulted with many 
organizations who have private property rights concerns. I 
personally have had the representatives of the property rights 
groups who visited Washington in June in my office.
    On Saturday, as I mentioned, the Western States Coalition 
to whom you spoke on Friday night, I also visited and spoke 
with them on Saturday. We have visited with the American Farm 
Bureau. They have been part of this. We have accepted every 
invitation they have sent to us.
    Any organization that has raised a concern, we have 
responded to it immediately.
    Mrs. Chenoweth. I won't go on, but just one simple 
statement. Most of those people met with you after this was 
published on May 19, so I think the course was already set. 
Thank you very much.
    Mr. Hansen. The gentleman from Colorado is recognized for 5 
minutes.
    Mr. Schaffer. Thank you, Mr. Chairman. This question that 
you answered about social and historical and environmental 
considerations being given great weight with respect to how we 
manage rivers is of great concern to people in the west, I can 
assure you.
    Again, our Constitution, which is the primary definitive 
document as to how we allocate and distribute water rights in 
our State and other States like it places great weight on the 
economic aspect of water allocation and appropriation.
    Water rights in Colorado and most western States is a 
property right, plain and simple.
    I guess my question is, do you believe that it is possible 
that this initiative could change the allocation or the 
distribution of water rights within a State?
    Ms. McGinty. No.
    Mr. Schaffer. Very good. Many people are concerned again 
along the lines of the property rights issues that you had 
described. They are concerned about the erosion of these 
rights, and they are concerned about their tax dollars going to 
hire Federal bureaucrats which in fact lobby against them 
before some county commission or water board or water court and 
so on.
    I would like to ask, in order to allay those concerns and 
in fact reaffirm the statements that you made today that this 
has no impact on property rights, would the Administration be 
willing to incorporate a provision prohibiting these river 
navigators and all other Federal employees involved in this 
program from intervening in local zoning and land management 
decisions involving private property?
    Ms. McGinty. We will reiterate and direct in the strongest 
possible terms, and in fact the terms that we will adopt are 
President Reagan's terms admonishing the agencies about the 
sanctity of private property rights. Yes.
    Mr. Schaffer. So having said that, that sounds pretty 
strenuous, the way you state that, so is there anything that 
you can see that would prevent you from prohibiting river 
navigators and all other Federal employees involved in this 
program from intervening in local zoning and land management 
decisions involving private property?
    Ms. McGinty. The river navigator, facilitator, or whatever 
we wind up ultimately calling this person will do only those 
things that the local community call on them, ask, request of 
them to do.
    Mr. Schaffer. What prevents you from making a commitment to 
this Committee today that these river navigators and other 
Federal employees associated with this program will be 
prohibited from being involved in local zoning and land 
management decisions?
    Ms. McGinty. I am just trying to be very clear that there 
is no part of this program which is about encouraging or 
fomenting or setting up a situation----
    Mr. Schaffer. Having said that, is there anything that 
prevents you from making a commitment to this Committee today 
that you will prohibit these river navigators and other Federal 
employees associated with this program from intervening in 
local zoning and land management decisions?
    Ms. McGinty. I just believe that I would need to understand 
the situation that you are pointing to and the problem that 
occasions your question more, and I would be happy to visit 
with you about it before----
    Mr. Schaffer. Let me say that your reluctance to 
essentially promise this Committee that what you had said 
earlier about the sanctity of property rights is very 
troubling. I went through a whole litany of examples, and it 
doesn't stop with the ones that I ticked off in this Committee.
    Time after time after time, this Administration has ignored 
the stated and official policy positions taken by Governors, 
State legislatures, delegation members. Again, you have stated 
most emphatically that this will have no impact on private 
property.
    All I want to know is if you can promise this Committee 
that these new Federal bureaucrats associated with this 
program, who you say will have no impact on local zoning, no 
impact on land management decisions, will be prohibited, flat 
out prohibited from participating in a county commission 
meeting or where zoning is concerned.
    Now, there is nothing inconsistent with that request, and 
what you have stated on the record here today, yet you are 
still not willing to make that commitment formally to this 
Committee. I just want to know what prohibits you or anybody 
here from making the commitment that essentially the statements 
that you have made are something that warrant backing them up 
in the proposal and making the commitment to the Committee.
    Mr. Babbitt. Congressman, let me, if I may, give you an 
example that occurs to me.
    It may well be possible out there somewhere that a 
Department of Agriculture official will be involved in a 
facilitator role. The way you phrase this, you would be asking 
the Department of Agriculture to refrain from enrolling private 
property in the conservation reserve program.
    Now, that is in fact a decision that relates to the 
management of private property.
    Mr. Schaffer. No.
    Mr. Babbitt. I would suggest----
    Mr. Schaffer. Mr. Secretary, I asked it related to this 
program. This is a new program that you have proposed.
    Mr. Babbitt. Congressman, the whole point is that we have 
spent the last 3 hours describing how the purpose of what we 
are doing is to facilitate and put together existing programs 
of which the Conservation Reserve Program is one.
    Mr. Schaffer. But with respect to this program and local 
zoning and local management decisions involving property 
rights, your CRP agents, your other agents in the Federal 
Government can make all the testimony they want under current 
law.
    I am narrowing this discussion to the issue that is before 
us today and being discussed today, not CRP, not----
    Mr. Babbitt. But this program, Congressman, don't you see, 
talks about facilitating a whole series of existing programs, 
many of which provide enormous specific benefits to private 
property owners and it is your----
    Mr. Schaffer. So the local zoning and property rights 
issues and land management issues are then a part of this. This 
is maybe--does this explain the reluctance to make the 
commitment to the Committee?
    Mr. Babbitt. If it is your desire to prohibit the use of 
the Conservation Reserve Program of all of the various NRCS 
programs, of the grants that are made to private property 
owners by the Fish and Wildlife Service, if it is your 
intention to prohibit private property owners from receiving 
the benefits of those programs, your question appears to be to 
be designed to do that.
    I can't understand why it is that you would choose to do 
that.
    Mr. Schaffer. That is an interesting strategy you are 
trying to employ here, but it is not going to work and I will 
tell you why.
    It is because the programs that you mentioned, CRP and 
others, are specifically authorized in statute. This one is 
not.
    Ms. McGinty. This is only going to coordinate programs, 
each one of which is authorized and appropriated by this 
Congress. That is specifically why there is no request for 
additional employees. There is no request for additional moneys 
or reprogramming of moneys. This is about efficiently and 
effectively doing our jobs faithfully to execute the law.
    Mr. Schaffer. Mr. Chairman, I realize that I have tested 
the patience of the clock here in limiting my time and I am out 
of it, but I would merely say that for those who had some 
question as to why there is great reluctance among western 
States to see this program go through unchallenged and without 
any oversight, I hope their eyes were opened today.
    Example after example after example has been cited not only 
by me but other members of this Committee where this 
Administration has in fact betrayed the trust of western 
States, western legislators, western Governors, western elected 
officials, western delegations of all sorts where the stated 
official opinion of those States has been ignored on grand 
scales time after time after time.
    I would just merely say that the Department of the Interior 
in particular is an agency that we have tried to trust as often 
as we possibly can, but that patience has just been tested far 
too frequently. The words of the Department of the Interior 
just ring hollow on western ears, and I think it is 
unfortunate.
    This could have been a good program, I believe, but the 
attitude toward western States, the reluctance to essentially 
make the commitments in front of this Committee to back up the 
words that have been expressed I find very troubling and are 
precisely the reason we are so skeptical about this program in 
the west.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments. I appreciate the patience of all of you in being with 
us. It is very kind of you to spend your time with us today, 
and we spend a lot of ours here discussing this issue.
    I think we are going to keep coming back down to the idea 
of process. I think it is going to come down to the idea of how 
do you step through it. Many of the things that come out of the 
Administration are very laudatory, and I agree with many of 
them.
    The other side of the coin is that it is the process that 
bothers us. Many of us spend a lot of time going into our home 
States of Idaho, Wyoming, Nevada, Utah, and there is a very 
tremendous skepticism predicated on some of these areas.
    As the gentleman from Colorado pointed out, possibly at the 
time that you could make some definite commitments, it would 
make life a lot easier for us. I can tell you that many of the 
Governors out there both R&Ds do not want to have things happen 
in their State without consent.
    As past speaker of the House of Utah, I know I would be 
offended if in that position if we didn't have at least some 
people tell us about it.
    It is going to take a while to overcome this last hit of 
September 1996, believe me. It is going to take a long time for 
people to get over it.
    I would hope that when we get into these things, we could 
keep in mind that we would like to work together. I think 
political divisions aren't as important as what is good for the 
country, and I would hope that would be the case with all of 
us.
    I appreciate all three of you being here, and the two other 
folks who joined us. It has been kind of you to be here. This 
hearing stands adjourned.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of Hon. Owen B. Pickett, a Representative in Congress from 
                         the State of Virginia

    Thank you, Mr. Chairman. I welcome this oversight hearing 
into The American Heritage Rivers Initiative announced by the 
President in his State of the Union address earlier this year 
and look forward to hearing from the witnesses who will be 
testifying before the Committee today.
    On May 21, 1997, the Administration announced in the 
Federal Register its initiative to ``Restore and protect 
America's Rivers.'' In an unusual move, a 3-week, public 
comment period was set aside ending on June 9, 1997. Under 
normal circumstances, public comment periods are held open for 
a minimum of thirty days in order to provide adequate time for 
interested citizens to file their views. The abridged public 
comment period was of concern to me because of the unusual 
nature of the arrangement being proposed where the executive 
branch of the U. S. Government, through its agencies, was 
undertaking the implementation of a new Federal program that 
has not been authorized by Congress and for which no moneys 
have been appropriated by the Congress to these agencies to be 
expended for this purpose. This strikes me as being quite 
unusual and if successful, reason for alarm. Federal agencies 
are generally considered to be creatures of Congress but this 
will no longer be true if they can, by unilateral action of 
their own, extend their reach and usurp moneys appropriated to 
them for other purposes to pay for their unauthorized 
activities.
    There have already been a number of instances where 
excessive and unauthorized action taken by Federal agencies has 
resulted in private property owners being denied the full use 
of their property. To provide some additional time to try and 
properly evaluate this proposal, I sent a letter to Ms. Karen 
Hobbs, Council on Environmental Quality, Executive Office of 
the President, requesting a sixty day extension to the public 
comment period. I hope our witnesses today will be able to 
clear up some of the concerns about the process being used to 
implement The American Heritage Rivers initiative and assure us 
that ample due process safeguards are in place to protect our 
citizens against unwarranted and unauthorized actions by 
Federal Government agencies. There is a good measure of 
enthusiastic support for the ultimate goal of the 
Administration's effort to preserve for future generations the 
rich natural and cultural legacy of our Nation's rivers. As a 
member of the leadership review board for the Elizabeth River 
Project, a non-profit organization committed to environmental 
preservation planning for the Elizabeth River in Hampton Roads, 
Virginia, I am aware of the immense local public support 
available to restore and preserve our Nation's waterways. There 
are many other willing and anxious citizens ready to join 
groups such as this one to ensure that our water resources are 
protected and enhanced in every appropriate way as quickly as 
possible. But as laudable as this objective is, it should not 
obscure or deter adherence to established constitutional 
principles nor diminish by Federal fiat the Constitutional 
protections afforded to our people.
    The Administration's far-reaching initiative deserves the 
thoughtful and deliberate consideration of this Committee. I 
look forward to hearing the testimony of the distinguished 
panel.

[GRAPHIC] [TIFF OMITTED] T2836.001

[GRAPHIC] [TIFF OMITTED] T2836.002

[GRAPHIC] [TIFF OMITTED] T2836.003

[GRAPHIC] [TIFF OMITTED] T2836.004

[GRAPHIC] [TIFF OMITTED] T2836.005

[GRAPHIC] [TIFF OMITTED] T2836.006

[GRAPHIC] [TIFF OMITTED] T2836.007

[GRAPHIC] [TIFF OMITTED] T2836.008

[GRAPHIC] [TIFF OMITTED] T2836.009

[GRAPHIC] [TIFF OMITTED] T2836.010

[GRAPHIC] [TIFF OMITTED] T2836.011

[GRAPHIC] [TIFF OMITTED] T2836.012

[GRAPHIC] [TIFF OMITTED] T2836.013

[GRAPHIC] [TIFF OMITTED] T2836.014

[GRAPHIC] [TIFF OMITTED] T2836.015

[GRAPHIC] [TIFF OMITTED] T2836.016

[GRAPHIC] [TIFF OMITTED] T2836.017

[GRAPHIC] [TIFF OMITTED] T2836.018

[GRAPHIC] [TIFF OMITTED] T2836.019

[GRAPHIC] [TIFF OMITTED] T2836.020

[GRAPHIC] [TIFF OMITTED] T2836.021

[GRAPHIC] [TIFF OMITTED] T2836.022

[GRAPHIC] [TIFF OMITTED] T2836.023

[GRAPHIC] [TIFF OMITTED] T2836.024

[GRAPHIC] [TIFF OMITTED] T2836.025

[GRAPHIC] [TIFF OMITTED] T2836.026

[GRAPHIC] [TIFF OMITTED] T2836.027

[GRAPHIC] [TIFF OMITTED] T2836.028

[GRAPHIC] [TIFF OMITTED] T2836.029

[GRAPHIC] [TIFF OMITTED] T2836.030

[GRAPHIC] [TIFF OMITTED] T2836.031

[GRAPHIC] [TIFF OMITTED] T2836.032


</pre></body></html>
